     Profile of Performance
     Audit profile of performance for the period October 1, 2011, to March 31, 2012

                                      Results                                       This reporting period
         Recommendations that funds be put to better use                                $2,463,922,094
         Recommended questioned costs                                                    $132,889,264
         Collections from audits                                                         $139,548,631
         Administrative sanctions                                                              3
         Subpoenas                                                                             46

     Investigation profile of performance for the period October 1, 2011, to March 31, 2012

                                      Results                                       This reporting period
         Recoveries and receivables                                                     $3,541,718,627
         Arrests1                                                                             334
         Indictments and informations                                                         354
         Convictions, pleas, and pretrial diversions                                          378
         Civil actions2                                                                        62
         Total administrative sanctions                                                       308
            Suspensions                                                                        71
            Debarments                                                                         99
            Limited denial of participation                                                    0
            Removal from program participation                                                 45
            Systemic implication reports                                                       0
         Personnel actions   3
                                                                                               42
         Search warrants                                                                       32
         Subpoenas                                                                            639
     1 2 3 \

     Hotline profile of performance for the period October 1, 2011, to March 31, 2012
                                      Results                                       This reporting period
         Funds put to better use                                                           $856,344
         Recoveries and receivables                                                        $143,405
         Hotline complaints processed related to OIG mission                                  250


     1
      Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
     2
      Civil actions no longer include contact letters.
     3
      Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, State,
     or local governments or of Federal contractors and grantees as the result of OIG activities.




ii
    mortgage fraud scheme involved approximately         to be qualified for at least 19 FHA-insured
    35 properties and loans obtained in the amount       and 13 conventional mortgages. Fifteen of
    of approximately $10 million.  Current losses        the FHA-insured mortgages are currently in
    from the scheme are estimated to be at least $4.7    default or foreclosure status. The defendant
    million. Twelve of the properties involved in this
                                                         was ordered to pay restitution totaling more
    scheme involve FHA-insured mortgages totaling
                                                         than $1.9 million, with $962,283 directed to
    approximately $2.8 million.  To date, FHA has
    realized approximately $300,000 in losses.  This     HUD. HUD OIG and the FBI conducted
    case is being investigated by HUD OIG and the        this investigation.
    Federal Bureau of Investigation (FBI). 


    Home Builder-Seller Pleads Guilty
    in FHA Mortgage Fraud Case
    A manufactured home and modular home dealer
    pled guilty to charges of conspiracy and wire
    fraud, false statements to HUD, and aiding and
    abetting.  From 2004 to 2008, the defendant
    and others conspired and created or provided
    false information and fraudulent documents to
    qualify borrowers for FHA-insured manufactured
    and modular home mortgages.  To date, HUD
    has realized losses in excess of $5.4 million
    on 81 claims.  HUD OIG, the U.S. Postal
    Inspection Service, the North Carolina Bureau
    of Investigation, the North Carolina Office of
    the Commissioner of Banks, and the North
    Carolina Attorney General’s Office conducted
    this investigation. 


    Former Loan Officer and Lender
    Branch Manager Sentenced
    A former loan officer and branch manager
    was sentenced to 48 months of incarceration,
    followed by 5 years of supervised release,
    for her earlier guilty plea to a criminal
    information charging her with conspiracy
    to commit mail fraud and wire fraud. The
    defendant conspired with at least four
    other individuals to obtain mortgages for
    unqualified borrowers, using fraudulent
    pay stubs, Internal Revenue Service forms
    W-2, income tax returns, verifications
    of employment, and seller-provided
    downpayments to make the borrowers appear



4                                     Chapter 1 - Single-Family Programs
    illegally accessed the accounts of five different
    housing authorities, altered landlord accounts,
    and activated direct deposits into the personal
    accounts of him and his girlfriend. The subject
    was ordered to pay $30,584 in restitution to
    HUD.  

    Developer Suspended Following
    Superseding Indictment
    A principal at a former HUD Indian Housing
    Block Grant (IHBG)-funded developer was
    suspended from participation in procurement
    and nonprocurement transactions as a
    participant or principal throughout the
    Executive Branch of the Federal Government. 
    The subject’s suspension was based on a
    superseding criminal indictment charging him
    with conspiracy, bribery relating to Federal
    program funds, embezzlement and theft from
    Indian tribal organizations, and aiding and
    abetting.  According to the indictment, between
    June 2002 and November 2006, the defendant
    misapplied and converted funds for his own
    use from a subrecipient of IHBG funds. The
    defendant purportedly did this by submitting
    grant payment requests for specific construction
    costs and then using the money for personal
    expenses, while paying bribes with approximately
    $33,000 in casino gaming tokens.  In total, the
    defendant has been charged with converting
    more than $2.3 million in IHBG funds to his own
    use. 




8                               Chapter 2 - Public and Indian Housing Programs
The U.S. Department of Housing and Urban         HUD program areas. The following table shows
Development (HUD) has received $13.61 billion    the HUD program areas receiving funding and
in funding under the American Recovery and       the amounts appropriated to each program.
Reinvestment Act of 2009 (ARRA) in several

HUD programs receiving ARRA funding


     HUD program office                  Program area                   Funding amount


                                  Public Housing Capital Fund            $4,000,000,000

      Office of Public and             Native American                    $510,000,000
       Indian Housing                 Housing Block Grant




                                   Community Development                 $1,000,000,000
                                       Block Grant

                                        Neighborhood                     $2,000,000,000
                                     Stabilization Program

      Office of Community             HOME Investment                    $2,250,000,000
   Planning and Development        Partnerships Program-Tax
                                   Credit Assistance Program

                                 Homelessness Prevention Fund            $1,500,000,000




                                       Assisted Housing                  $2,000,000,000
                                        Stability Grant

 Office of Multifamily Housing       Green Retrofit Grant                 $250,000,000




                                    Lead Hazard Reduction                 $100,000,000
                                    Demonstration Program
    Office of Healthy Homes
    and Lead Hazard Control


                                                                        $13,610,000,000




                   Chapter 5 - American Recovery and Reinvestment Act of 2009                   15
Investigation	
Housing Authority Executive
Director Sentenced in
Embezzlement Case
A former housing authority executive director
was sentenced to 14 months incarceration and 36
months probation and ordered to pay Beaufort,
NC, $50,000 in restitution. The defendant
pled guilty to charges of embezzlement and
corporate malfeasance.  From 2008 to 2010, the
executive director embezzled and personally
used between $50,000 and $80,000 in housing
authority operating account funds that
included comingled ARRA funds.  HUD OIG,
the Beaufort Police Department, the North
Carolina State Bureau of Investigation, the
Tennessee Bureau of Investigation, and the U.S.
Government Accountability Office conducted
this investigation. 
	
HUD Employee Convicted
A HUD Office of Native American Programs
employee and former community planner for a
community housing department, an organization
that receives HUD and ARRA-funded Indian
Housing Block Grant funds, was convicted on
charges of committing theft from a program
receiving Federal funds.  Between December
2009 and January 2010, the employee diverted
and personally used $13,000 in ARRA funds. 
HUD OIG conducted this investigation. The
employee has been terminated from employment
at HUD, and the Office of Investigation has
received a proposed debarment from the
Departmental Enforcement Center.




                   Chapter 5 - American Recovery and Reinvestment Act of 2009   17
Introduction                                                   HUD OIG audited HUD’s Community
                                                               Development Block Grant (CDBG) 2008
                                                               Disaster Recovery assistance for Hurricane Ike
and Background                                                 and other disasters, administered by the Texas
                                                               Department of Rural Affairs, to determine
In response to disasters, Congress may                         whether HUD’s Disaster Recovery funds used
appropriate additional funding as Disaster                     for infrastructure and revitalization contracts
Recovery grants to rebuild the affected areas                  were administered in compliance with the
and provide crucial seed money to start the                    supplemental appropriations requirements,
recovery process. Over the past several years,                 HUD’s policies, and the State of Texas’ Disaster
disaster funding for the U.S. Department of                    Recovery action plan.  
Housing and Urban Development (HUD) has
exceeded $29 billion, from which HUD provides                  The State did not follow Federal and State
flexible grants to help cities, counties, and States           requirements and best practices for its
recover from presidentially declared disasters.                infrastructure and revitalization professional
These active disaster grants nationwide have                   services and project management services
approximately $26 billion in obligations and $20               contracts. Specifically, it (1) improperly
billion in disbursements. Of the total $29 billion             procured its professional services and project
in current HUD disaster funds, $19.6 billion                   management services contracts, (2) improperly
was provided for Hurricanes Katrina, Rita, and                 increased the project management services
Wilma. Regarding the $19.6 billion in funds                    company’s contract, (3) included ineligible
provided to Gulf Coast States, $16.8 billion, or               contract provisions, (4) failed to ensure that
85.7 percent of the funds, has been disbursed for              the contract payment type was consistent,
the period ending March 31, 2012.                              (5) failed to prevent questionable charges,
                                                               (6) did not ensure that its budgets clearly
                                                               assigned costs according to HUD CDBG cost
Keeping up with communities in the recovery
                                                               categories, and (7) did not ensure that its project
process can be a challenging position for HUD.
                                                               management services contract contained specific
HUD OIG continues to take steps to ensure that
                                                               and quantifiable performance measures.  As
the Department remains diligent in assisting
                                                               a result, the State paid more than $9 million
communities with their recovery efforts.
                                                               in questioned costs.  In addition, it failed to
                                                               adequately monitor its professional and project

Audit                                                          management services contracts.  Therefore, it did
                                                               not review the contractor’s performance or its
                                                               accounting for, allocation of, or support for the
Strategic Initiative 3: Contribute to                          eligibility of its costs. The Texas General Land
the strengthening of communities                               Office recognized that the project management
                                                               services contract had problems and terminated
                                             Audit             it during the audit, which will prevent the State
         Program results
                                            1 audit7
                                                               from improperly spending additional Disaster
                                                               Recovery funds.
        Questioned costs                 $9.1 million
                                                               OIG recommended that HUD require the State
     Funds put to better use             $75 million           to (1) repay nearly $920,000 in ineligible markup
7                                                              costs, (2) support or repay nearly $7.6 million
                                                               in unsupported inflated costs, (3) repay more
                                                               than $542,000 in unreasonable and unnecessary
7
 The disaster grant program audit is a community planning      inflated costs, and (4) document its termination
and development audit. The questioned costs and funds put      of the professional services contract and its
to better use amounts relate only to disaster-related costs.




                                        Chapter 6 - Disaster Relief Programs                                         19
     deobligation of the funds, which will result in     and a $100 special assessment.  The defendant
     more than $75 million in Disaster Recovery          pled guilty in February 2011 to theft of
     funding being put to better use.  In addition,      government funds for fraudulently applying for
     HUD should require the State to adopt and           and receiving Mississippi Development Authority
     follow sound agency business procedures for         (MDA) Homeowner Assistance Program (HAP)
     its Disaster Recovery-funded procurements           funds for a residence that was not her primary
     and payments to ensure that they comply with        residence at the time Hurricane Katrina struck
     Federal and State policies. (Audit Report: 2012-    the Mississippi Gulf Coast.  She received
     FW-1005)                                            $150,000 as a result of this application.  She then
                                                         applied for another MDA HAP grant as power of
                                                         attorney for her mother’s property, receiving an
                                                         additional $150,000.  The defendant also applied
     Investigation                                       for and received a Louisiana Road Home grant
                                                         of $20,945, under another name, for another
                                                         property that was not her primary residence at
     The HUD OIG Office of Investigation continues
                                                         the time Hurricane Katrina struck Louisiana. 
     to pursue HUD disaster assistance crimes
     along with the Federal Bureau of Investigation
     and other Federal, State, and local partners.       Former HUD Attorney
     While the majority of prosecutions during           Suspended by Bar Association
     this reporting period involved individuals who
     obtained disaster assistance through fraud,
                                                         in Disaster Fraud Case 
     OIG is vigorously pursuing public corruption,
                                                         A former HUD attorney, who was previously
     infrastructure, and procurement crimes.
                                                         sentenced in U.S. District Court for her earlier
     Working with the Louisiana Recovery and
                                                         guilty plea to committing theft of government
     Mississippi Development Authorities, OIG is
                                                         funds, was suspended by the California Bar
     taking a proactive role to prevent fraudulent
                                                         Association from practicing law for 3 years. 
     disaster-related claim payments and assist
                                                         The defendant and her husband, who also
     with the recovery of deceptive or fraudulent
                                                         pled guilty, applied for and received $150,000
     grants. In addition, HUD OIG continues to be
                                                         in CDBG Disaster Recovery assistance funds
     a dedicated partner in the National Center for
                                                         through the MDA and $50,000 in Small Business
     Disaster Fraud Task Force (previously known as
                                                         Administration (SBA) disaster assistance for
     the Hurricane Katrina Fraud Task Force). HUD
                                                         hurricane-damaged residential property for a
     OIG provides personnel to support the joint
                                                         property that was not their primary residence
     command center in Baton Rouge, LA, continues
                                                         during Hurricane Katrina.  HUD OIG, SBA
     to support disaster-related investigative efforts
                                                         OIG, and the Mississippi State Auditor’s Office
     throughout the country, and actively participates
                                                         conducted this investigation. 
     in the sharing of information and the receipt
     and referral of complaints with other law
     enforcement agencies.

     Disaster “Victim” Sentenced
     A purported disaster victim was sentenced to
     18 months imprisonment, 3 years supervised
     release, and 100 hours of community service
     and ordered to pay restitution of $349,517.  The
     defendant was also required to pay an additional
     forfeiture amount of $349,517, a fine of $5,000,




20                                    Chapter 6 - Disaster Relief Programs
     Reviewing and making recommendations on               as opposed to its branches; (3) a mortgagee must
     legislation, regulations, and policy issues is a      indemnify HUD for an insurance claim if the
     critical part of the Office of Inspector General’s    mortgagee “knew or should have known” that
     (OIG) responsibilities under the Inspector            fraud or misrepresentation was involved; and
     General Act. During this 6-month reporting            (4) mortgagees, the lender insurance authority
     period, OIG has committed approximately 433           of which has been terminated, may apply for
     hours to reviewing 112 issuances. The draft           reinstatement in accordance with procedures
     directives consisted of 10 notices of funding         closely modeled on the existing procedures for
     availability, 62 mortgagee letters and notices, and   a mortgagee seeking reinstatement following
     40 other directives. OIG provided comments            termination of its origination approval agreement
     on 29 percent of these draft directives. For          or direct endorsement authority.
     example, OIG did not concur on one proposed
     rule to streamline the Federal Housing
     Administration’s (FHA) reporting requirements
     regarding financial statements for small lenders
     and mortgagees, supervised by a Federal banking
                                                           Notices and
     agency, which have consolidated assets that do
     not meet the threshold set by Federal banking         Policy Issuances
     agencies’ individual regulations (currently set at
     $500 million in consolidated assets).                 Single-Family Housing
                                                           On December 2, 2011, HUD issued Mortgagee
                                                           Letter 2011-39, providing notice of the
     Enacted Legislation                                   comprehensive update to FHA’s single-family
                                                           loan limits, issued under the authority of H.R.
     The Federal Housing Commissioner continued            2112, the Consolidated and Further Continuing
     to propose a number of risk management                Appropriations Act of 2012, Public Law 112-55.
     initiatives related to U.S. Department of             Specifically, the FHA national loan limit “floor”
     Housing and Urban Development (HUD)                   remains at 65 percent of the national conforming
     single-family programs and has started the            loan limit of $417,000. For areas designated as
     process of updating its multifamily program           high cost in 2008 under the Economic Stimulus
     requirements. As part of the issuances reviewed,      Act, the FHA national loan limit “ceiling” is
     OIG provided comments on the preliminary              $729,750 for a one-unit property.
     rules. Many of the proposed changes required
     rule making. On January 25, 2012, HUD                 On December 20, 2011, HUD sent for
     issued a final rule in Docket No. FR 5156-F-          departmental review a notice (Docket No.
     02, which updates and enhances the lender             FR-5595-F-01) implementing another risk
     insurance process and furthers HUD’s efforts          management initiative. Specifically, FHA is
     to improve and expand FHA’s risk management           providing more definitive underwriting standards
     activities. Based on comments received on the         for mortgage loan transactions that are manually
     proposed rule, HUD has made the following             underwritten. The notice provides a manual
     changes: (1) HUD will review lender insurance         underwriting matrix, which addresses three
     mortgagee performance on an ongoing basis (as         items: (1) borrowers who exceed the 31 percent
     opposed to “continual” basis); (2) the automatic      housing-to-income ratio yet carry little or no
     termination of a mortgagee’s lender insurance         discretionary debt and, therefore, do not exceed
     authority under 24 CFR (Code of Federal               the maximum 43 percent debt-to-income ratio,
     Regulations) 203.4(d)(3) is limited to actions        (2) the relationship between compensating
     taken at the institution level of the mortgagee,      factors and “stretch ratios” that permits
                                                           borrowers to exceed the housing payment



26                           Chapter 8 - Legislation, Regulation, and Other Directives
and total debt-to-income ratios under certain        Multifamily Housing
FHA mortgage insurance programs, and (3)
the establishment of additional compensating         In response to our audit report 2010-LA-0001,
factors that can be used to qualify borrowers who    issued November 12, 2009, HUD has revised
exceed FHA housing and debt-to-income ratios         the annual contributions contract which it
established by this notice. Public comments          executes with public housing agencies that act
have been received, and HUD is expected              as performance-based contract administrators.
to issue a mortgagee letter to assist in the         In addition, in 2011, it issued a request for
implementation of the new requirements.              applications in awarding those contracts. This
                                                     process was met with significant resistance from
On February 10, 2012, HUD issued Mortgagee           applicants. In response, HUD decided to issue
Letter 2012-2, which clarified the requirements      a notice of funding availability. During this
for the origination, closing, and submission for     semiannual period, HUD drafted this notice
FHA insurance endorsement of loans via the           and cleared all of OIG’s concerns provided
sponsored third-party origination process.           during the departmental clearance process. The
                                                     revised notice and annual contributions contract
On February 23, 2012, HUD submitted for              are expected to provide a significantly positive
review a request for comments on Docket No.          impact on HUD’s budget.
FR 5572-N-01, regarding HUD changes to the
proposed cap to seller concessions. The proposal
entails reducing the amount of seller concessions    Public and Indian Housing
permitted as offsets to actual closing costs to 3
percent or $6,000, whichever is greater, but not     Demolition and Disposition Program - OIG
allow offsets to exceed the borrower’s actual        participated with the Office of Public and
costs. The last day for public comments was          Indian Housing (PIH) in the development of
March 26, 2012. Therefore, this proposal has not     revised regulations for the Demolition and
been finalized.                                      Disposition Program described in 24 CFR Part
                                                     970.  Under the U.S. Government Accountability
On February 28, 2012, HUD issued Mortgagee           Office’s Government Auditing Standards,
Letter 2012-3, which modified documentation          OIG’s participation was limited to a purely
requirements for self-employed borrowers,            advisory capacity.  OIG may provide advice
provided new guidance on disputed accounts,          in implementing its audit recommendations
and expanded the current definition of family        and establishing internal controls.  OIG may
members for identity-of-interest transactions.       also answer technical questions and provide
                                                     information on best practices; however, it does
On March 6, 2012, HUD issued Mortgagee               not participate in decision making.  Also, any
Letter 2012-4, which announced changes to the        decisions on whether to follow OIG’s advice
FHA single-family annual mortgage insurance          would remain with HUD management officials. 
premium (MIP) and upfront mortgage insurance         These restrictions on OIG’s participation
premium. For example, the President signed into      are needed to maintain its independence
law the Temporary Payroll Tax Cut Continuation       in performing audits as specified in the
Act of 2011, which requires FHA to increase the      Government Auditing Standards.
annual MIP it collects by 10 basis points. Also,
HUD exercised its preexisting statutory authority    Capital Fund Financing Program - In 1996,
to add an additional 25 basis points to mortgages    the Quality Housing and Work Responsibility
with base loan amounts exceeding $625,000.           Act was passed with many changes to the
These changes affect case numbers assigned           Housing Act of 1937, including revisions to the
on or after April 9, 2012, and June 11, 2012,        Public Housing Capital Fund program and the
respectively.                                        establishment of a new Capital Fund Financing




                       Chapter 8 - Legislation, Regulation, and Other Directives                        27
     Program.  PIH has not published regulations to            for the program.  An effective control
     implement the changes to the Housing Act of               measure provides for an open competition
     1937.  Instead, HUD has used notices to provide           among all participants.  To establish an
     operating instructions.  The notices contribute           effective control measure to ensure an open
     to the inconsistent processing of transactions.           competition, OIG strongly recommends that
     One recent example is the statutory mandate               PIH establish a uniform limit on the number
     that the Capital Fund program is precluded from           of units for all PHAs in the program.     
     funding energy systems and capital equipment
     unless they are obsolete.  PIH did not provide
                                                           Almost any PHA is eligible to participate in
     a definition for the term “obsolete” and allows
                                                           the demonstration program except troubled
     each housing agency to determine whether
                                                           PHAs, and these PHAs may participate if they
     the energy systems and capital equipment are
                                                           provide HUD with evidence of their capacity to
     obsolete.  OIG detected many transactions
                                                           implement the program. 
     of premature replacement, but without a
     standard for obsolete energy systems and capital
     equipment, the statutory mandate cannot be            Community Planning
     enforced.                                             and Development
     Rental Assistance Demonstration Program               Public interest and concern, resulting in
     - HUD issued a notice for comments on the             congressional hearings, resulted in HUD’s
     implementation of the Rental Assistance               publishing significant changes to the Office
     Demonstration Program in the Federal Register         of Community Planning and Development’s
     on March 8, 2012.  This notice provides               HOME Investment Partnerships Program
     instructions for the program, including eligibility   regulations. We generally agreed with the
     and selection criteria. OIG has the following         proposed changes but included additional
     concerns about the proposed notice:                   changes which we believe will strengthen the
                                                           program. The proposed changes have not
     •	 PIH issued the notice without conducting           become final.
        a front-end risk assessment.  Without
        an inventory of all significant risks, PIH
        control measures in the draft notice may not
        mitigate all inherent risks.  Another concern
        with the draft notice relates to Office of
        Management and Budget Circular A-4,
        which requires a cost-benefit study.  HUD
        issued the draft notice without conducting
        this mandatory study.  Without the cost-
        benefit study, HUD cannot ensure that the
        most cost-effective means and methods were
        selected to implement the demonstration
        program. 

     •	 For this demonstration program, PIH
        decided on the need to control the number
        of units awarded to each public housing
        agency (PHA) participating in the program
        to obtain diversity.  PIH provided an
        exception to New York and authorized
        more than 6 percent of the units available



28                           Chapter 8 - Legislation, Regulation, and Other Directives
     In the audit resolution process, Office of          a recommendation that the HUD Office of
     Inspector General (OIG) and U.S. Department         Community Planning and Development (CPD)
     of Housing and Urban Development                    establish and implement controls to ensure that
     (HUD) management agree upon the needed              field offices require participating jurisdictions
     actions and timeframes for resolving audit          to close out future HOME activities within a
     recommendations. Through this process, OIG          timeframe that will permit reallocation and use
     hopes to achieve measurable improvements in         of the funds for eligible activities in time to avoid
     HUD programs and operations. The overall            losing them to recapture by the United States
     responsibility for ensuring that the agreed-        Treasury under provisions of Public Law 101-510.
     upon changes are implemented rests with HUD          
     managers. This chapter describes significant        OIG rejected two management decisions
     management decisions with which OIG                 proposed by CPD to address the
     disagrees. It also contains a status report on      recommendation because they did not provide
     HUD’s implementation of the Federal Financial       for the establishment and implementation
     Management Improvement Act of 1996                  of all of the controls needed to address the
     (FFMIA). In addition to this chapter on audit       recommendation. CPD has not responded
     resolution, see appendix 2, table B, “Significant   to our follow-up regarding the need for a
     Audit Reports Described in Previous Semiannual      management decision for this recommendation.
     Reports in Which Final Action Had Not Been
     Completed as of March 31, 2012.”                    OIG also recommended that CPD obtain a
                                                         formal legal opinion from HUD’s Office of
                                                         General Counsel regarding whether


     Audit Reports                                       •	 HUD’s cumulative technique for assessing
                                                            compliance with commitment deadlines is

     Issued Before                                          consistent with and an allowable alternative
                                                            to the 24-month commitment required by 42

     the Start of the
                                                            U.S.C. (United States Code) § 12748 and
                                                         •	 HUD’s first-in, first-out (FIFO) method

     Period With No                                         for assessing compliance with HOME
                                                            expenditure requirements is consistent with
                                                            and an allowable alternative to the 8-year
     Management                                             recapture deadline pursuant to Public Law
                                                            101-510, codified at 31 U.S.C. § 1552.
     Decision as of                                      CPD obtained a legal opinion from the Assistant
     March 31, 2012                                      General Counsel for Community Development
                                                         on March 5, 2010.  The legal opinion supports
                                                         HUD’s use of the cumulative approach and
     HUD Lacked Adequate                                 FIFO accounting method.  Based on this legal
     Controls To Ensure the Timely                       opinion, CPD does not plan to implement OIG’s
     Commitment and Expenditure                          recommendation to discontinue use of the FIFO
                                                         method to account for the commitment and
     of HOME Funds, Issue                                expenditure of HOME funds or the cumulative
     Date: September 28, 2009                            technique for assessing deadline compliance.

                                                         OIG requested reconsideration of the opinion. 
     HUD OIG audited HUD’s HOME Investment
                                                         On June 10, 2010, HUD’s General Counsel and
     Partnerships Program.  The OIG report included



30                                        Chapter 9 - Audit Resolution
Chief Financial Officer provided additional          compliance with Federal accounting standards
information regarding HUD’s recapture                and appropriations law.  Since OIG’s last
requirements for the HOME program statute            semiannual report date, in conjunction with its
and CPD’s use of cumulative accounting and           annual audit of HUD’s financial statements,
the FIFO method for financial management.            OIG has continued to discuss the FIFO
                                                     accounting method with the U.S. Government
HUD explained that CPD’s use of cumulative           Accountability Office (GAO) and has made a
accounting in its financial management               request for GAO to determine whether the FIFO
represents a reasonable interpretation of the        accounting method violates Federal standards
statutory duties imposed on the HUD Secretary        for appropriation accounting and whether the
and addresses the complex administrative             cumulative method is an acceptable alternative
challenges inherent in managing the HOME             to the statutory recapture provision.  (Audit
Investment Trust.  HUD also explained                Report: 2009-AT-0001)
that obligations and expenditures under the
HOME program are accounted for on a FIFO             The City of Binghamton, NY, Did
basis by fund type instead of by fiscal year
and that CPD, in enforcing the obligation
                                                     Not Always Administer Its Section
and expenditure requirements, looks to total         108 Loan Program in Accordance
cumulative obligations and expenditures instead      With HUD Requirements, Issue
of accounting for them by fiscal year.  Based on
the Chief Financial Officer’s financial analysis,    Date: December 21, 2010
given the origin of these requirements and the
                                                     HUD OIG audited the operations of the City of
fundamental nature of this block grant program,
                                                     Binghamton, NY, pertaining to its administration
HUD believed that the FIFO accounting
                                                     of its Community Development Block Grant
method for obligations and expenditures by fund
                                                     (CDBG) Section 108 Loan Guarantee program.
type was consistent with Federal accounting
                                                     The audit objectives were to determine
requirements and had no objection to the
                                                     whether the City (1) administered its Section
total cumulative obligations and expenditures
                                                     108 loan program effectively, efficiently, and
methods used for assessing compliance with the
                                                     economically in accordance with applicable
24-month commitment and 5-year expenditure
                                                     rules and regulations; (2) used Section 108 loan
requirements.
                                                     proceeds on eligible activities that met a national
                                                     objective of the program; and (3) expended
OIG continues to disagree that CPD’s use of
                                                     additional CDBG funds for subsequent Section
the FIFO method for recognizing commitments
                                                     108 loan repayments and other related costs that
and expenditures that participating jurisdictions
                                                     were necessary, reasonable, and in accordance
make against their HOME appropriations or
                                                     with all applicable contracts, agreements, and
CPD’s cumulative accounting is consistent
                                                     Federal regulations.
with the legislation under 42 U.S.C. § 12748,
requiring recapture of funds not committed by
                                                     The City did not ensure that its Section 108
statutory deadline dates.  These methods of
                                                     loans and related activities were administered
accounting also potentially violate the closure of
                                                     effectively, efficiently, and economically in
accounts under 31 U.S.C. § 1552.
                                                     accordance with applicable rules and regulations
                                                     and that loan proceeds were expended on eligible
Another issue raised by CPD’s accounting
                                                     activities that met a national objective of the
methods is whether HUD’s FIFO accounting
                                                     program. In addition, the City did not ensure
method complies with Federal accounting
                                                     that additional expenditures of CDBG funds
requirements for maintaining the U.S. Standard
                                                     for subsequent Section 108 loan repayments
General Ledger and general appropriations
                                                     and other related costs were necessary,
law.  The accounting issues require review for



                                      Chapter 9 - Audit Resolution                                         31
     reasonable, and in accordance with all applicable    legal opinion received on March 15, 2012, from
     contracts, agreements, and Federal regulations.      OIG’s General Counsel, it was concluded that
     Consequently, significant CDBG funds were            HUD regulations permit CDBG funds to be used
     disbursed for Section 108 debt repayments,           for the reasonable cost of temporarily managing
     and future CDBG funds will be required until         the hotel pending its sale.  Therefore, it appears
     the Section 108 debts have been fully paid.          to be a reasonable exercise of HUD’s discretion
     Therefore, the ability to provide program            to allow all of the sale proceeds to be used to pay
     benefits to low- and moderate-income residents       the past-due hotel operating expenses.  Further,
     of Binghamton has been diminished.                   there is no legal authority to prohibit the City’s
                                                          use of its CDBG funds for the payment of its
     OIG recommended that HUD instruct the City           Section 108 loan obligations. Since OIG had
     to repay from non-Federal funds more than $1.5       initially rejected the proposed management
     million in hotel sale proceeds that were used        decision, it is waiting for HUD to reenter the
     for City expenses to the established Section         decisions into HUD’s Audit Resolution and
     108 loan repayment account (recommendation           Corrective Action Tracking System, so that OIG
     1D). Further, OIG recommended that the               can enter its concurrence with recommendations
     City use the funds from the Section 108 loan         1D and 1F (allowing $974,105 and disallowing
     repayment account to make all future Section         $549,105).  (Audit Report: 2011-NY-1004)
     108 payments that are due in accordance with
     the HUD-approved refinancing agreement.
     Should the account contain less than the             An Underwriting Review of 15
     $4.5 million in required payments, the City          FHA Lenders Demonstrated
     should pay the balance from non-Federal funds
     (recommendation 1F).
                                                          That HUD Missed Critical
                                                          Opportunities To Recover Losses
     Recommendation 1D: HUD proposed a                    to the FHA Insurance Fund,
     management decision contending that payments
     made using hotel sale proceeds to satisfy the
                                                          Issue Date: March 2, 2011
     tax liens were acceptable and that the City
                                                          HUD OIG conducted an initiative in 2010,
     will be advised to repay $549,463 in hotel sale
                                                          known as Operation Watchdog, to review
     proceeds unless it can show that the use of funds
                                                          the underwriting of 15 Federal Housing
     to operate the hotel were necessary to preserve
                                                          Administration (FHA) direct endorsement
     the collateral. Further, HUD contends that had
                                                          lenders having default and claim rates indicating
     the City initially sought permission to use the
                                                          lender performance problems. The initiative
     proceeds from the sale to operate the hotel for
                                                          took place because the FHA Commissioner had
     this purpose, permission would likely have been
                                                          expressed concerns regarding the increasing
     granted since failure to do so would have resulted
                                                          default and claim rates against the FHA
     in a loss in value of HUD’s lien on the property.
                                                          insurance fund for failed loans. OIG determined
                                                          that the lenders did not properly underwrite
     Recommendation 1F: HUD proposed a
                                                          140 of 284 loans reviewed, or 49 percent,
     management decision agreeing that the City
                                                          because their underwriters did not follow FHA’s
     should use all available amounts in the Section
                                                          requirements. As a result, FHA’s insurance fund
     108 loan repayment account to make payments
                                                          suffered or could expect to suffer losses of more
     on the guaranteed loan. However, HUD
                                                          than $11 million.
     disagrees that the City should be required to
     make payments from non-Federal sources if the
                                                          In a larger perspective, OIG determined that
     loan repayment account is insufficient.
                                                          HUD did not have a formal process established
                                                          to review all claims paid on defaulted mortgages
     OIG initially rejected the proposed management
                                                          or at least all claims paid that met high-risk
     decision on April 28, 2011. However, based on a


32                                        Chapter 9 - Audit Resolution
criteria, resulting in unrecovered losses to the     costs and independently verify that loans met
insurance fund for loans that should not have        FHA requirements and were, therefore, eligible
been insured. Operation Watchdog indicated           for insurance. HUD ultimately agreed to review
systemic problems in how lenders certified to        loans that had gone to claim through its Quality
loans’ being properly underwritten and eligible      Assurance Division targeting process when it
for FHA insurance when the loans were not            performed lender reviews. It further agreed
eligible. Therefore, when HUD paid claims            that if claim file reviews showed inadequate
on defaulted loans and then did not review           documentation by the lender, HUD would take
the underlying loans for insurance eligibility,      appropriate corrective actions regarding the
it was missing critical opportunities to recover     responsible lender.
unnecessary losses from the lenders on the loans
that should not have been insured.                   In conjunction with Operation Watchdog, OIG
                                                     reviewed HUD’s annual risk-based targeting
Not all defaults and resulting claims were caused    plan, which included claims, defaults, and
by poor underwriting, as OIG pointed out in the      compare ratios, among other factors. HUD
report. However, poor underwriting played a          also used a case-level tool to select loans for
major role in the 140 ineligible loans identified    review. HUD asserted that the tool prepared a
through Operation Watchdog. OIG concluded            statistically valid sample of loans based upon
that reviewing loans that have had claims paid       various risk factors, which included claims.
by using risk-based targeting or a statistically     However, OIG concluded that this method did
valid sample of quickly defaulting loans could       not ensure that all claims were reviewed and may
provide HUD with an opportunity to recover           not have targeted a sufficient number of loans
unnecessary losses caused by these loans. OIG,       with claims paid to reasonably protect the fund.
therefore, recommended that HUD develop and
implement procedures to review a statistical or      Further, OIG recognized that HUD had recently
risk-based selection of loans, for which FHA paid    tightened FHA lending requirements but stated
a claim on the mortgage insurance within the         that those improvements would affect future
first 2 years of endorsement, to verify that the     loans and not the rapidly growing influx of
loans met FHA requirements and were qualified        claims from lenders that had originated loans
for insurance.                                       in the past few years. OIG also commended
                                                     HUD for taking important steps in recent years
This was not the first time that OIG had             to implement risk-based techniques to identify
expressed concerns about HUD’s unnecessary           lenders and loans that pose significant risk to the
exposure when paying FHA insurance claims            FHA insurance fund. OIG encouraged HUD to
on loans that did not qualify for insurance.         continue to strengthen its requirements and hold
For example, OIG reported in July 2006 (OIG          lenders accountable but pointed out that HUD
Audit Report No. 2006-SE-0001) that HUD              also needed to quickly confront the problem
did not independently validate that mortgage         of billions being paid for defaulted loans and
loans insured under the FHA program met              not being recovered when many loans were not
requirements after paying billions in insurance      eligible for FHA insurance.
claims. HUD paid the claims, as required by
law, but did not review the loan documentation       On February 4, 2011, HUD responded to OIG’s
for compliance with program requirements,            draft report with a description of its multifaceted
fraud, or misrepresentations. HUD relied on          approach to minimizing losses to the FHA
lender certifications that the loans were eligible   insurance fund, which it maintained would
for insurance. In response to the audit, HUD         achieve the intent of OIG’s recommendation.
generally disagreed with OIG’s recommendation        The majority of the multifaceted approach
to establish procedures to review paid claims        was proactive and did not indicate an increase
associated with early defaulted loans and related    in the review of loans for which claims had



                                      Chapter 9 - Audit Resolution                                         33
     already been paid. However, OIG agreed               meaningful portion of paid claims and to take
     that HUD’s targeting tools and other recent          appropriate actions against lenders that caused
     initiatives generally met the intent of OIG’s        FHA to pay claims on ineligible loans.
     recommendation, which was aimed at protecting
     the FHA insurance fund from unnecessary              By August 11, 2011, HUD had not responded;
     costs. Therefore, OIG committed to working           therefore, OIG referred the matter to the
     with HUD, through the management decision            Acting Assistant Secretary for Housing – FHA
     process, to gain more insight into the risk-based    Commissioner. On September 30, 2011, the
     factors used to select lenders and loans for         last day of the semiannual reporting period, the
     review, the targeting enhancements that were         FHA Commissioner responded with a proposed
     under development, and the two new initiatives       revised management decision that essentially
     launched in fiscal year (FY) 2010.                   repeated HUD’s stance that it was in HUD’s
                                                          best interest to take a proactive prospective
     However, no meaningful communication took            approach that focuses on reviewing risky loans
     place between report issuance on March 2,            as early as possible before claims are filed. The
     2011, and June 16, 2011, when OIG received the       revised management decision did not respond
     proposed management decision memorandum              to the recommendation in question or provide
     from the Deputy Assistant Secretary for Single       a target date when HUD believed it would
     Family Housing, which disagreed with OIG’s           complete the final action to address the issue
     proposed actions. HUD acknowledged that              of claims noted in the report. After September
     some of the cases reviewed in the Operation          30, 2011, HUD provided additional information
     Watchdog initiative were not underwritten            related to its FHA transformation efforts and a
     in accordance with FHA requirements but              response to specific questions OIG had posed
     mainly focused its response on HUD’s proactive       months before; however, the information did not
     approach for identifying high-risk lenders           sufficiently address OIG’s concerns. OIG also
     and initiating counterparty risk initiatives to      held discussions with HUD in recent months
     minimize losses to the FHA insurance fund.           but had not received an acceptable management
                                                          decision. On March 30, 2012, OIG referred the
     As a result of providing what it deemed sufficient   matter to the Acting Deputy Secretary for action.
     information to address OIG’s concerns, HUD
     determined that no further action was required.      OIG maintains that the FHA insurance fund has
     OIG disagreed. On July 5, 2011, OIG notified         incurred billions in losses annually that HUD
     the Acting Deputy Assistant Secretary for            could have recovered if more had been done to
     Single Family Housing that OIG was rejecting         target and review loans for which claims were
     the proposed management decision for further         paid and pursue the lenders that caused these
     action. OIG maintained that claims paid              losses. The FHA fund has sustained historical
     on loans that should not have been insured           losses in recent years and is poised to continue a
     continued to have a significant, negative impact     high level of losses in the near future, which will
     on the FHA insurance fund and HUD needed to          surely include loans that should not have been
     do more to identify ineligible loans and pursue      insured. Without appropriate focus on claims, OIG
     recoveries from the responsible parties. OIG         maintains that FHA is missing critical opportunities
     further stated that despite multiple efforts by      to recover unnecessary losses. (Audit Report:
     OIG to obtain sufficient information from HUD        2011-CF-1801)
     to determine whether its current and planned
     actions sufficiently met the recommendation,
     HUD had not provided sufficient information
     for OIG to make that determination. OIG’s
     questions and concerns remained regarding
     what HUD was doing to look into a targeted,




34                                        Chapter 9 - Audit Resolution
FHA Has Improved Its Annual                           OIG disagreed with the proposed management
                                                      decision and sent a referral memorandum to
Lender Renewal Process, but                           the Acting Assistant Secretary for Housing on
Challenges Remain, Issue                              November 14, 2011. In the memorandum, OIG
Date: June 14, 2011                                   acknowledged the efforts being made by HUD
                                                      to improve procedures as evidenced by the Draft
HUD OIG audited FHA’s Title II single-family          Standard Operating Procedures for the Lender
lender renewal process. The objective was to          Recertification Branch and the draft LASS
determine whether the Lender Approval and             certification. However, the recommendations
Recertification Division’s controls were adequate     should not have been considered “closed”
for determining whether lenders met FHA               because HUD did not provide implementation
annual renewal requirements.                          dates. In addition, the draft procedures and
                                                      LASS certification did not include steps
The Division had taken significant steps to           to ensure that high-risk lenders’ financial
strengthen its controls over the lender renewal       statements are manually reviewed.
process; however, additional improvements were
needed. The process still had weaknesses related      Recommendation 2A: In its October 12,
to Mortgagee Review Board (MRB) referrals,            2011, management decision memorandum,
lender financial information review, and data         HUD disagreed with the first item in
and renewal fee calculations in the Division’s        recommendation 2A, stating “…the data in the
lender recertification tracking system. These         IMF [Inside Mortgage Finance] is accurate;
weaknesses resulted in an increased risk that         however the verbiage used by its staff to
noncompliant lenders were allowed to continue         relate the numerical codes in the IMF to the
participating in the FHA program, the Division’s      OIG resulted in a misinterpretation of the
inability to effectively monitor lenders, and         information.”  HUD agreed to the second item
lenders paying lower fees than required.              in the recommendation and indicated that the
                                                      recommendation was closed, stating that it had
OIG recommended that HUD require the                  provided an attached memorandum regarding
Division to improve controls over the lender          the recalculation change. HUD disagreed with
recertification process (recommendation 1A),          the third item in the recommendation, stating
make changes to the Institutional Master File         that it considers a cutoff date for the deletion
system to ensure data integrity (recommendation       of branches unwarranted. HUD stated that it
2A), and collect underpaid lender fees                does not believe that lenders are attempting to
(recommendation 2B).                                  skirt its controls but are simply updating the
                                                      records. According to HUD, a review of the loan
Recommendation 1A: In its October 12, 2011,           data provided by OIG in support of the finding
management decision memorandum, HUD                   revealed that these were loans that were closed by
stated that it was in agreement with all four parts   the deleted branches but provided no evidence
of the recommendation and was in the process          of originating activities by these branches.
of implementing changes that would satisfy            HUD also contended that recent changes to the
the recommendation. Planned changes in its            Lender Recertification Branch’s business model
procedures were evidenced by attachments to the       make this recommendation obsolete. HUD also
memorandum that included a copy of the Draft          disagreed with OIG’s determination of $178,600
Standard Operating Procedures for the Lender          in funds to be put to better use, stating that due
Recertification Branch and a draft Lender             to the recent changes to the minimum adjusted
Assessment SubSystem (LASS) certification.            net worth requirement, the exclusion of loan
Based upon this response, HUD considered the          correspondents, and consideration of other
entire recommendation to be closed.                   factors, HUD is unable to rely on the accuracy of
                                                      OIG’s estimate.



                                      Chapter 9 - Audit Resolution                                         35
     In the referral memorandum to the Acting            stated that the fees are not owed and that 66
     Assistant Secretary for Housing on November 14,     percent of the lenders referenced in the report
     2011, OIG outlined its disagreement with HUD’s      are no longer active, making the collection of the
     position on recommendation 2A. Regarding the        fees very difficult. HUD noted that its revision
     first item, OIG stated that the finding pointed     of the fee calculation for the branches added
     out that the status codes within individual         7 months before recertification sufficiently
     records were not consistent. This portion of the    addresses the recommendation. HUD further
     recommendation was designed to eliminate the        contended that the renewal fee is a payment
     conflicting data within each individual lender      which permits a lender to continue participation
     record in the IMF database. The management          in FHA programs and should be based upon a
     decision memorandum did not address the             lender’s operations for the upcoming period.
     issue as reported. For the second item, the
     attachment referred to in HUD’s memorandum          In the referral memorandum to the Acting
     did not provide documentation showing that          Assistant Secretary for Housing on November 14,
     the calculation had been changed in the system.     2011, OIG outlined its disagreement with HUD’s
     The attachment only gave examples of how the        position on recommendation 2B. Although
     calculation was performed in comparison to          HUD maintains that the fees are not owed,
     how OIG recommended that the calculation be         it does not provide a valid reason why.  Until
     performed.                                          HUD can show why there should not be a cutoff
                                                         date for deleting branches, it should go back to
     HUD’s response to the third item in                 the lenders and collect the fees for any deleted
     recommendation 2A gave no indication that           branches that originated loans beyond the prior
     HUD had reviewed the lender branches referred       year’s cutoff date. HUD agreed that the fee
     by OIG to determine whether these deleted           calculation for branches added in the seventh
     branches were performing origination activities,    month before renewal was incorrect; therefore,
     including the opening of FHA case numbers           there is no reason why HUD cannot collect the
     for new loans, after the yearend date.  Further,    underpaid fees.  OIG can accept that HUD may
     there was no control in place to ensure that FHA    not be able to collect these fees from lenders that
     case numbers were not generated by branches         are no longer in business, but it should make an
     that were deleted after the yearend date.  Unless   effort to do so for active FHA lenders.
     HUD develops a procedure to verify that the
     deleted branches are not originating loans after    After the November 14, 2011, referral
     the yearend date, a cutoff date should be built     memorandum was sent, OIG met with the
     into the automated recertification process.         Acting Assistant Secretary requesting a response.
     HUD’s statement that “recent changes to the         A formal response was not received, and OIG
     Lender Recertification Branch’s business model      referred the management decision to HUD’s
     make this recommendation obsolete” was vague        Acting Deputy Secretary on March 30, 2012.
     and did not offer sufficient detail as to how the   (Audit Report: 2011-KC-0001)
     “business model” renders the recommendation
     obsolete. In regard to the fourth item in
     recommendation 2A, the November 14, 2011,
     memorandum to the Acting Assistant Secretary
     for Housing noted that OIG would be willing to
     review and consider an alternative calculation
     from HUD.

     Recommendation 2B: In its October 12, 2011,
     management decision memorandum, HUD
     disagreed with recommendation 2B. HUD




36                                        Chapter 9 - Audit Resolution
Prospect Mortgage, LLC, Sherman                     5 years of the loan endorsement dates. If HUD
                                                    determines that the claim was filed for loans that
Oaks, CA, Did Not Always                            did not meet requirements, Prospect should be
Comply With Federal Housing                         required to reimburse HUD for the claim or the
Administration Underwriting and                     loss on the loans or indemnify HUD from losses.

Quality Control Requirements,                       HUD disagreed with our recommendations
Issue Date: July 8, 2011                            that it refer Prospect to the MRB. Instead, it
                                                    proposed to conduct its own review of Prospect
HUD OIG audited FHA-insured loans                   in 2012 and refer Prospect to the MRB if
underwritten by Prospect Mortgage, LLC, within      that review uncovers serious and material
Region IV of HUD OIG to determine whether           noncompliance with HUD-FHA requirements.
Prospect complied with HUD’s requirements for
(1) origination and underwriting relative to cash   OIG disagreed with HUD’s proposal to defer
assets, income, and creditworthiness; (2) quality   referral of Prospect to the MRB. The pattern
controls; and (3) branch office operations.         of abuse presented in the audit warrants the
                                                    recommended actions. HUD’s proposal to
Prospect did not always follow HUD’s                base its decision for MRB consideration on a
underwriting and quality control requirements       subsequent review by its office is an unnecessary
for FHA-insured loans. Specifically, Prospect       and wasteful use of HUD’s limited staff
did not properly underwrite 25 of the 33 loans,     resources. Congress established the MRB
which placed the FHA insurance fund at risk         to oversee performance of FHA lenders to
for $550,257 in questioned costs and nearly $1.7    ensure compliance with FHA requirements.
million in funds to be put to better use. It also   Accordingly, OIG believes that HUD should refer
did not properly implement quality controls over    Prospect to the MRB based on the results of the
its underwriting process for a specific group of    audit.
defaulted loans approved by high-default-rate
underwriters at two of its branch offices.          HUD disagreed with OIG’s recommendation
                                                    to conduct a full underwriting review of the 18
OIG recommended that HUD take appropriate           claim-terminated loans originated at the two
administrative action against Prospect for the      high-default-rate branches to determine whether
underwriting and quality control deficiencies       they met HUD requirements and if the loans did
identified by the audit. Specifically, Prospect     not meet the requirements, require Prospect to
should be required to reimburse or hold HUD         reimburse HUD for either the claim amounts
harmless against any losses for the 25 improperly   paid or the actual loss HUD sustained. Instead,
underwritten loans in finding 1 that involve        HUD proposed that it would be more effective
$550,257 in questioned costs and nearly $1.7        to take a proactive, prospective approach that
million in funds to be put to better use and for    focuses on case-level reviews of mortgages
the improper management of its quality control      just after the issuance of mortgage insurance
function. The quality control deficiencies          certificates, or postendorsement reviews, to
have placed the FHA insurance fund at a             identify potential underwriting deficiencies at
higher risk for losses on additional defaulted      the earliest possible date.
loans with mortgages totaling more than $26.1
million that were underwritten by two high-         HUD also disagreed with OIG’s recommendation
default-rate branch offices. Therefore, OIG         to conduct a full underwriting review of any
also recommended that HUD review Prospect’s         of the remaining 166 defaulted loans (184 - 18
underwriting for any of the defaulted loans         loans with filed claims) if a claim is filed against
included in the $26.1 million, which have already   the FHA insurance fund within 5 years of
gone to claim or on which a claim is filed within   the endorsement dates for the affected loans.



                                     Chapter 9 - Audit Resolution                                          37
     Prospect should be required to indemnify HUD           agreements and had lost their FHA approval.
     if a claim is filed on a loan that did not meet        However, FHA lacked the authority to prevent
     HUD’s requirement for approval. Instead, HUD           these corporate officers from reentering the FHA
     proposed that it would be more effective to take       program.
     a proactive, prospective approach that focuses
     on reviewing loan risk as early as possible before     OIG recommended that FHA seek legislative
     claims are filed.                                      and program rule changes to prevent lenders
                                                            and their corporate officers with unsatisfied
     OIG disagrees with the proposal by HUD to              indemnification agreements from reentering the
     not conduct the requested full underwriting            FHA program as the same or a new lender.
     reviews for the 18 claim-terminated loans and
     166 defaulted loans originated at the two high-        In its February 2, 2012, management decision
     default-rate branches to determine whether they        memorandum, FHA stated that it disagreed with
     met HUD requirements. OIG recognizes the               OIG’s finding and recommendation. FHA stated
     benefits that can be derived from the approach         that it would seek a legal opinion from the Office
     proposed by HUD. However, the audit identified         of General Counsel on whether, as a matter of
     a pattern of loan origination abuses at the two        law, legislation can be enacted that confers upon
     branches that requires specific attention by HUD       HUD the authority to prohibit an individual
     in addition to, rather than as an alternative to,      from participating in the FHA program under
     the review process proposed by HUD to protect          the following circumstance:
     the insurance fund. OIG believes that HUD
     should implement the recommendations cited in          The individual served as a corporate officer within
     the audit report. (Audit Report: 2011-AT-1011)         an FHA-approved mortgagee at a time when that
                                                            FHA-approved mortgagee was determined to have
     FHA Did Not Prevent Corporate                          committed a knowing and material violation of FHA
                                                            requirements.
     Officers of Noncompliant
     Lenders From Returning                                 FHA also stated that since this measure would
                                                            not require HUD to prove any knowledge
     to the FHA Program, Issue                              or culpability on the part of the individual
     Date: September 26, 2011                               being excluded from FHA participation, such
                                                            a standard would impose strict liability on
     HUD OIG audited FHA because it noted during            corporate officers for the acts of the mortgagee.
     previous audit work that FHA might not have a
     system in place to track lenders that voluntarily      OIG disagreed with the proposed management
     left the FHA program with outstanding                  decision and sent a referral memorandum to
     indemnification agreements. The objective was          the Acting Assistant Secretary for Housing on
     to determine whether FHA prevented corporate           March 16, 2012. In the memorandum, OIG
     officers from participating in FHA programs            acknowledged that FHA does not have the
     after those officers left other lenders that did not   authority to prevent individual officers from
     honor their FHA indemnification agreements.            participating in the FHA program solely based
                                                            on the fact that their previous lending institution
     FHA did not prevent lenders’ corporate officers        did not honor its indemnification agreements
     from participating in FHA programs after those         with HUD. Further, OIG understands FHA’s
     officers left other lenders that did not honor         concern about proving the knowledge or
     their FHA indemnification agreements. OIG              culpability of the individual being excluded
     found 12 different corporate officers who were         from FHA participation. However, OIG’s
     participating in the FHA program after leaving 7       concern remains that individual principals of
     lenders that did not honor their indemnification       some lending institutions are able to disregard




38                                          Chapter 9 - Audit Resolution
the indemnification agreements with HUD and            timely manner.  Documentation to support the
are allowed to continue FHA participation by           recipients’ voucher requests for payment was
hiding behind corporate law and forming a new          either missing or not adequate.  Healthy Homes
corporation.                                           accepted operating ledgers, billing summaries,
                                                       email lists, a list of expenditures, budgets
FHA’s proposed management decision only                showing the current request by category, and
goes as far as to seek a legal opinion from the        copies of check stubs as support for the voucher
Office of General Counsel. It does not provide         requests for payment.  It also did not ensure that
any other efforts by HUD to seek legislative or        recipients’ working files included the required
program rule changes in an effort to prevent           documents and reports such as annual and
known bad players from reentering the FHA              quarterly documents and reports.
program. Such program rule changes might
include FHA’s conducting reviews of a mortgagee        OIG recommended that HUD (1) obtain
at the time FHA requests that mortgagee to             adequate documentation to support the payment
enter into indemnification agreements. The             of more than $4.2 million in ARRA funds as
review could include steps to determine the level      cited in this finding, (2) ensure that recipients’
of participation of the corporate officers in the      voucher requests for payment are reviewed
day-to-day operations of the mortgagee to help         in a timely manner, (3) implement adequate
establish the level of culpability the officers have   procedures and controls to correct voucher
within the corporation. (Audit Report: 2011-           processing deficiencies, and (4) implement
KC-0004)                                               adequate policies and procedures to ensure that
                                                       recipients’ files contain the documentation
                                                       and reports required by Healthy Homes’ issued
The Office of Healthy                                  guidance.
Homes and Lead Hazard
                                                       During the reporting period, OIG rejected two
Control Needs To Improve                               management decisions proposed by Healthy
Its Monitoring of American                             Homes to address the audit recommendations. 
Recovery and Reinvestment                              The proposed management decisions and
                                                       corrective actions were not adequately
Act Grant Recipients, Issue                            supported; therefore, OIG was unable to
Date: September 30, 2011                               agree.  For instance, Healthy Homes stated
                                                       that it was confident that ARRA recipients
HUD OIG audited the Office of Healthy Homes            expended Federal funds in compliance with
and Lead Hazard Control’s monitoring of its            applicable regulations and documented those
American Recovery and Reinvestment Act of 2009         expenditures compliantly.  Nevertheless,
(ARRA) grant recipients to determine whether           to ensure consistency and compliance with
Healthy Homes monitored its recipients of ARRA         financial and record-keeping requirements, it
grants in accordance with ARRA and HUD                 had reinforced financial and record-keeping
requirements.                                          requirements with all staff and ARRA recipients.
                                                       In addition, its Grant Desk Guide was modified
Healthy Homes did not maintain documentation           to reflect changes made to the time line for
in accordance with its requirements to support         reimbursement processing as outlined in the
payments to four recipients totaling more              new policy guidance.  However, Healthy Homes
than $4.2 million of the nearly $5 million in          did not provide documentation to support the
grant awards.  The payments were made to               expenditures of the four grant recipients cited in
reimburse the recipients for their claimed grant       the report and its revised policy. (Audit Report:
expenses.  Additionally, Healthy Homes did not         2011-CH-0003)
review the voucher requests for payment in a




                                       Chapter 9 - Audit Resolution                                         39
     Significantly                                       agreed to require the City to develop and
                                                         implement acceptable written policies and
                                                         procedures.  HUD recently submitted a
     Revised                                             revised management decision because it had
                                                         transferred full administrative responsibility
     Management                                          for the grant program to St. Clair County,
                                                         IL, and the old recommendations were no

     Decisions                                           longer necessary.  Beginning in FY 2012,
                                                         the City became a member of the St. Clair
                                                         County Urban County and will not have a
     Section 5(a)(11) of the Inspector General           CDBG program to administer.  In addition,
     Act, as amended, requires that OIG report           HUD revised its management decision for the
     information concerning the reasons for any          building rent to reflect that it had received
     significant revised management decisions made       acceptable documentation and would not require
     during the reporting period. During the current     reimbursement.  On March 30, 2012, OIG
     reporting period, there were significant revised    agreed with the revised significant management
     management decisions on five audits.                decision.  (Audit Report: 2010-KC-1003) 

     The City of East St. Louis Did                      The City of East St. Louis Awarded
     Not Properly Allocate Salary and                    Block Grant Program Funds to
     Building Expenses or Properly                       Recipients Without Adequately
     Document Its Process To Secure                      Verifying Their Eligibility, Issue
     a Consulting Services Contract,                     Date: September 28, 2010
     Issue Date: March 26, 2010
                                                         HUD OIG audited the City of East St. Louis’
     HUD OIG audited the City of East St. Louis’         CDBG program to determine whether the City
     CDBG program to determine whether the City          properly verified the eligibility of CDBG-funded
     properly expended CDBG funds for salaries           housing rehabilitation recipients. 
     and building expenses and followed proper
     procurement processes while awarding significant    The City awarded CDBG funds to 143 recipients
     administration contracts.                           without adequately verifying their eligibility
                                                         to receive housing rehabilitation assistance.
     The City did not properly allocate salary and       Specifically, it did not verify eligibility
     building expenses to the CDBG program.  It also     criteria such as evidence of flood insurance,
     did not properly document the cost estimate and     homeowners’ insurance, code compliance, and
     selection process used to procure a contract for    income eligibility.
     developing its 5-year consolidated plan.
                                                         Among other things, OIG recommended that
     Among other things, OIG recommended that            HUD require the City to develop and implement
     HUD require the City to develop and implement       a quality assurance plan to ensure that all
     acceptable written policies and procedures.  OIG    program recipients meet program eligibility
     also recommended that HUD require the City to       requirements and provide training to ensure
     provide documentation supporting the building       future compliance.
     rent payments or reimburse its CDBG program
     more than $58,000.                                  In its original management decision, HUD
                                                         agreed to require the City to implement a
     In its original management decision, HUD            quality assurance plan and provide training




40                                        Chapter 9 - Audit Resolution
to staff members.  HUD recently submitted a         adequate internal controls and provide training
revised management decision because it had          to staff members.  HUD recently submitted a
transferred full administrative responsibility      revised management decision because it had
for the grant program to St. Clair County, IL,      transferred full administrative responsibility
and the old recommendations were no longer          for the grant program to St. Clair County, IL,
necessary.  Beginning in FY 2012, the City          and the old recommendations were no longer
became a member of the St. Clair County Urban       necessary.  Beginning in FY 2012, the City
County and will not have a CDBG program to          became a member of the St. Clair County Urban
administer. On March 30, 2012, OIG agreed           County and will not have a CDBG program to
with the revised significant management             administer. On March 30, 2012, OIG agreed
decision.  (Audit Report:  2010-KC-1008)            with the revised significant management
                                                    decision.  OIG also added 1 year’s funding of
The City of East St. Louis, IL, Did                 more than $1.6 million to the funds to be put to
                                                    better use to recognize the benefit of this action. 
Not Properly Manage Housing                         (Audit Report:  2011-KC-1001) 
Rehabilitation Contracts Funded
by the Community Development                        HUD Subsidized an Estimated
Block Grant Program, Issue                          2,094 to 3,046 Households
Date: February 9, 2011                              That Included Lifetime
                                                    Registered Sex Offenders,
HUD OIG audited the City of East St. Louis’
CDBG program to determine whether the City          Issue Date:  August 14, 2009
properly managed its housing rehabilitation
contracts.                                          HUD OIG audited HUD’s requirement
                                                    prohibiting lifetime registered sex offenders from
The City awarded more than $1 million in            admission to HUD-subsidized housing.  Based
CDBG funds for 124 of the 147 rehabilitation        upon a statistical sample, OIG determined that
contracts reviewed without adequately ensuring      HUD subsidized an estimated 2,094 to 3,046
that it complied with requirements and that the     households that included lifetime registered sex
work was completed in an acceptable manner.         offenders.  As a result, it did not accomplish the
Specifically, it did not ensure that contractors    objective of the statute to prevent admission of
completed all of the contracted work as required    dangerous sex offenders, and the same offenders
and at a reasonable cost.  Additionally, the City   who were deemed too dangerous for admission
created scopes of work for the rehabilitation       were allowed to continue living in subsidized
contracts that were not detailed and specific       housing. 
in nature.  Finally, it did not comply with
Federal procurement requirements and its own        OIG recommended that HUD develop and
policies and procedures when it managed the         implement controls to monitor housing authority
rehabilitation contracts.                           use of the required application questions and
                                                    retention of appropriate background check
Among other things, OIG recommended that            documentation (recommendation 1D). 
HUD require the City to develop and implement
adequate internal controls to ensure compliance     In the original management decision, HUD
with procurement regulations, update its            agreed to change the monitoring questions used. 
inspection software, and provide training and       HUD recently submitted a revised management
technical assistance to ensure future compliance.   decision for this recommendation, proposing to
In its original management decision, HUD            incorporate the required application questions
agreed to require the City to implement             into a next generation management system that




                                     Chapter 9 - Audit Resolution                                          41
     is being developed.  This measure will allow        affiliated entities that received those advances;
     HUD to streamline its monitoring of required        however, its actions would be dictated by its
     application question use and monitor a greater      responsibility to weigh the relative strengths
     number of housing authorities than would            of these organizations and the advantages and
     be possible through field office monitoring.        disadvantages to HUD and the residents served
     HUD estimates that the application module           by these facilities.
     will be launched and a related monitoring plan
     developed by December 31, 2016.  On March           Since agreement on the management decision,
     29, 2012, OIG agreed with the revised significant   the property owner has sought to sell some
     management decision.  (Audit Report:  2009-         or all of its properties. OIG and HUD had
     KC-0001)                                            many discussions on how to resolve the
                                                         recommendation in the event that the owner
     The Owner of Ebony                                  sold or transferred the property. Both OIG
                                                         and HUD sought a solution that would most
     Lake Healthcare Center,                             effectively meet the concerns of all parties. As
     Brownsville, TX, Violated Its                       a result of those conversations, on September
                                                         8, 2010, HUD proposed a revised management
     Regulatory Agreement With                           decision which provided that in the event of a
     HUD-Brownsville, TX, Issue                          transfer of physical assets of Ebony Lake, HUD
     Date: November 25, 2008                             approval would require that the Governmental
                                                         and Educational Assistance Corporation
     HUD OIG issued an audit entitled “The Owner         (GEAC)-Ebony Lake ensure that, at a minimum,
     of Ebony Lake Healthcare Center, Brownsville,       $497,000 in funds would remain with the project
     Texas, Violated Its Regulatory Agreement with       in the residual receipts account. Alternatively,
     HUD.”  Among the issues reported was that the       upon a sale by GEAC-Ebony Lake that would
     owner violated the regulatory agreement when its    result in the payoff of the FHA mortgage,
     managers ignored HUD directives by making 96        $497,000 would be paid to the multifamily-FHA
     transfers from the project that totaled more than   mortgage insurance fund (or be put toward
     $4 million from January through December 31,        payoff of the mortgage’s unpaid principal
     2007. OIG’s recommendation 1B of the report         balance) from the residual receipts account.
     was that HUD required the owner to deposit          OIG concurred with the revised management
     $497,000 from non-Federal funds into the            decision on September 13, 2010.
     project’s residual receipts account. HUD agreed
     to endeavor to incorporate into a management        On October 26, 2011, due to an upcoming
     improvement and operating plan, developed           sale of two of the owner’s properties, including
     with the owner, a requirement that the owner        Ebony Lake, HUD submitted another revised
     deposit $497,000 from non-Federal funds into        management decision. In the event of a transfer
     the project’s residual receipts account. OIG        of physical assets of Ebony Lake, HUD approval
     concurred with the management decision on           would require that GEAC ensure that, at a
     March 26, 2009.                                     minimum, $497,000 in funds would remain with
                                                         the remaining FHA-insured GEAC project(s),
     At the time of the original management decision,    specifically Fort Stockton, in a residual receipts
     HUD stated that the project was a single-           account. Alternatively, upon a sale of Ebony
     asset entity with no revenues other than those      Lake that would result in the payoff of the FHA
     generated by the facility and that the owner was    mortgages for all GEAC FHA-insured projects,
     a nonprofit organization, which asserted that       $497,000 would be paid to the multifamily-FHA
     it had no funds available to make the required      mortgage insurance fund (or be put toward
     deposit.  HUD further stated that it might          payoff of the mortgages’ unpaid principal
     decide to approve repayment of advances by the      balances) from the residual receipts account.




42                                        Chapter 9 - Audit Resolution
None of these conditions, however, is to be          loss, or destruction.
construed as solely sufficient to gain HUD
approval of any proposed sales transaction(s)        OIG recommended that HUD (1) identify
of the three remaining GEAC FHA-insured              the information security controls needed to
projects—Ebony Lake, Mission Oaks, and Fort          protect data uploads; (2) design and implement
Stockton. OIG concurred with this revised            guidance, tools, and the communications
management decision on November 15, 2011.            necessary for FHA’s business partners and their
(Audit report: 2009-FW-1002)                         roles and responsibilities; (3) ensure that there is
                                                     a requirement for an assessment of the business
Review of Selected FHA Major                         partners’ information security controls that
                                                     protect FHA data; and (4) coordinate the quality
Applications’ Information                            assurance plans with business partners to include
Security Controls, Issue                             security measures.
Date: June 12, 2008                                  FHA concurred with our recommendations
HUD OIG audited FHA’s management of                  on June 4, 2008, and provided a corrective
its information technology resources and             action plan on October 7, 2008.  The original
compliance with HUD and other Federal                corrective action plan was designed to set up a
information security requirements to determine       certification process and possible memorandums
whether FHA effectively managed security             of understanding with FHA lenders.  However,
controls relating to its information technology      after further review of the audit findings,
resources. This audit supported OIG’s annual         FHA issued a revised management decision
financial statement audits of FHA and HUD            for recommendations 2A, 2B, 2C, and 2D on
as well as OIG’s annual Federal Information          November 21, 2011.  FHA determined that it
Security Management Act (FISMA) review.              would be able to issue a mortgagee letter that
                                                     would mandate that FHA lenders comply with
FHA did not develop or implement adequate            FISMA.  By issuing the mortgagee letter, FHA
information security controls for its business       would not be required to review and approve
partners and outside entities that remotely          all lenders’ security plans but would be assured
access or develop, process, and maintain HUD         of lenders’ security measures through FISMA
data for the FHA Connection application.  FHA        compliance.  OIG concurred with the revised
depended on its business partners to generate,       management decisions on December 5, 2011. 
process, and store FHA mortgage data but had         FHA plans to issue the mortgagee letter on April
not established information security guidance        30, 2012. (Audit Report: 2008-DP-0004)
or requirements.  As a Federal entity, FHA is
required by FISMA to ensure that its data are
adequately protected from unauthorized access,
use, destruction, disclosure, disruption, or
modification even when the data are maintained
on behalf of the agency.  FHA program staff
was not fully aware of its responsibility for the
information collected, processed, and stored on
its behalf.  By not providing adequate security
controls and safeguards over data maintained
outside HUD’s secured physical perimeter, FHA
did not comply with HUD regulations or Federal
guidelines.  As a result, data that were critical
to FHA’s mission and its ability to operate
efficiently and effectively were at risk of theft,



                                      Chapter 9 - Audit Resolution                                          43
     Significant                                            data currently required.  HUD is in the process
                                                            of modernizing its financial management
                                                            systems by developing an integrated financial
     Management                                             management system.  The modernization
                                                            development, HUD’s Integrated Financial
     Decision With                                          Improvement Project (HIFMIP), was launched
                                                            in FY 2003 but has been plagued by delays. 

     Which OIG                                              Originally planned for implementation in
                                                            2006, the contract for HIFMIP was awarded on

     Disagrees                                              September 23, 2010.  The 10-year contract plan
                                                            was established based on the implementation
                                                            project start date and current schedule. With
     During the reporting period, there were no             the award of the contract, HUD anticipated
     reports in which OIG disagreed with the                implementation of phase I of the project in
     significant management decision.                       time to have all of the FY 2012 financial data
                                                            within the new system.  However, OIG remains
                                                            concerned about the successful execution and
                                                            completion of HIFMIP.  Project requirements
     Federal Financial                                      had not been updated, resulting in a 2-month
                                                            schedule slip.  Disagreements between HUD

     Management                                             and the HIFMIP contractor with regard to
                                                            interpretation of key contract provisions

     Improvement
                                                            further threatened the project.  Also, concerned
                                                            about the successful execution of the project,
                                                            HUD convened an independent government
     Act of 1996                                            assessment team, composed of several subject-
                                                            matter experts from multiple government
     In FY 2011, HUD did not substantially comply           agencies, to rapidly evaluate the status of
     with FFMIA.  In this regard, HUD’s financial           HIFMIP.  The government assessment team also
     management systems did not substantially               assessed the “go live” target date as high risk. 
     comply with Federal financial management               Based on recommendations made by the team,
     system requirements.                                   HUD has revised the target date to go live during
                                                            the second quarter of FY 2013.  OIG remains
     During FY 2011, HUD made limited progress              concerned that completion of the first phase of
     in bringing the financial management systems           HIFMIP will not result in a truly integrated core
     into compliance with FFMIA.  However, HUD’s            financial system. 
     financial management systems continued to
     not meet current requirements.  HUD’s systems          FFMIA requires OIG to report in its Semiannual
     were not operated in an integrated fashion and         Reports to the Congress instances and reasons
     linked electronically to efficiently and effectively   when an agency has not met the intermediate
     provide agencywide financial system support            target dates established in its mediation plan
     necessary to carry out the agency’s mission and        required by FFMIA.  At the end of 2011, HUD
     support the agency’s financial management              reported that 3 of the 41 financial management
     needs.                                                 systems were not in substantial compliance
                                                            with FFMIA.  These three systems are the
     HUD’s financial systems, many of which were            HUD Procurement System (HPS), Small
     developed and implemented before the issue             Purchase System (SPS), and Facilities Integrated
     date of current standards, were not designed to        Resources Management System.  HUD acquired
     provide the range of financial and performance         a new application, HUD Integrated Acquisition




44                                          Chapter 9 - Audit Resolution
Management System (HIAMS), to replace the
HPS and SPS on September 30, 2010. The
HIAMS application went live on October 1,
2011. Additionally, OIG determined that the
Integrated Disbursement and Information
System (IDIS) was not in substantial compliance
with FFMIA. However, HUD continues to report
IDIS as compliant. Although HUD certified 38
individual systems as compliant with Federal
financial management systems requirements,
HUD did not perform independent reviews
of all of its financial management systems in
accordance with Office of Management and
Budget Circular A-127.  Collectively and in the
aggregate, deficiencies continued to exist.




                                   Chapter 9 - Audit Resolution   45
Office of Audit
Background

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), section
989C, requires inspectors general to report the latest peer review results in their semiannual reports
to Congress. The purpose in doing so is to enhance transparency within the government. Both the
Office of Audit and Office of Investigation are required to undergo a peer review of their individual
organizations every 3 years. The purpose of the reviews is to ensure that the work completed by
the respective organizations meets the applicable requirements and standards. The following is a
summary and status of the latest round of peer reviews for the organization.

Peer Review Conducted on HUD OIG

The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
received a grade of pass (the highest rating) on the peer review report issued by the U.S. Treasury
Inspector General for Tax Administration on September 22, 2009.  There were no recommendations
included in the System Review Report. The report stated:

In our opinion, the system of quality control in effect for the year ended March 31, 2009, for the audit
organization of the HUD OIG has been suitably designed and complied with to provide the HUD
OIG with reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Federal audit organizations can receive a rating of pass, pass with
deficiencies, or fail. The HUD OIG has received a peer review rating of pass.

Peer Review Conducted by HUD OIG on USDA

The U.S. Department of Agriculture (USDA) OIG received a rating of pass on the peer review report
issued by HUD OIG on September 30, 2009.  The System Review Report contained no findings or
recommendations. 




Office of Investigation
Peer Review Conducted on HUD OIG

The most recent peer review of the Office of Investigation was conducted in 2011 by the U.S.
Department of Health and Human Services OIG. The results of the peer review found HUD OIG
compliant (the highest rating) with the quality of standards established by the inspector general
community and the attorney general guidelines.




                                  Appendix 1 - Peer Review Reporting                                       47
Internal Reports
Audit Reports
Chief Financial Officer
2012-DP-0001              Audit Report on the Fiscal Year 2011 Review of Information Systems
                          Controls in Support of the Financial Statements Audit, 02/14/2012.

2012-FO-0003              Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011
                          and 2010 Financial Statements, 11/15/2011. Better Use: $2,372,591,000.

2012-FO-0005              Annual Evaluation of HUD’s Compliance With the Reporting
                          Requirements of the Improper Payments Information
                          Act of 2002, Executive Order 13520, and OMB Circular
                          A-123 Implementing Guidance, 03/15/2012.

 Chief Information Officer
2012-DP-0003           Enterprisewide Improvements are Needed in HUD’s Computer Security
                       Environment, 03/23/2012.

2012-FO-0004              Information System Deficiencies Noted During FHA’s Fiscal Year 2011
                          Financial Statement Audit, 01/27/2012.

 Community Planning and Development
2012-PH-0001         HUD Needed to Improve Its Use of Its Integrated Disbursement
                     and Information System To Oversee Its CDBG Program, 10/31/2011.
                     Questioned: $66,849,658; Unsupported: $66,849,658.

 Government National Mortgage Association
2012-DP-0002          Improvements Are Needed In Ginnie Mae’s Controls Over Its Information
                      Technology Resources, 03/16/2012.

2012-FO-0001              Audit of Ginnie Mae’s Financial Statement for
                          Fiscal Years 2011 and 2010, 11/07/2011.

 Housing
2012-FO-0002              Audit of the FHA’s Financial Statement for Fiscal Years 2011 and 2010,
                          11/07/2011.
2012-LA-0002              HUD’s Statement of Work for Appraisal Field Review Services Did Not
                          Always Require Sufficient Confirmation of an Interior Review, 12/02/2011.

2012-PH-0002              HUD’s Philadelphia, PA, Homeownership Center Generally Monitored
                          Loan Originations in Compliance With Requirements, 12/15/2011.




                                  Appendix 2 - Audit Reports Issued                                   49
     Internal Reports
     Audit Reports
     2012-PH-0003           HUD Approved MAP Program Lenders as Required but Did Not
                            Adequately Select Lenders to Monitor, 01/12/2012.

     2012-PH-0004           HUD Controls Did Not Always Ensure That Home Equity Conversion
                            Mortgage Loan Borrowers Complied With Program Residency
                            Requirements, 02/09/2012. Better Use: $3,960,192.

      Public and Indian Housing
     2012-LA-0001           HUD Did Not Adequately Support the Reasonableness of the Fee-for-
                            Service Amounts or Monitor the Amounts Charged, 11/16/2011.




50                                 Appendix 2 - Audit Reports Issued
External Reports
Audit Reports
Community Planning and Development
2012-AT-1001        The Municipality of San Juan Generally Complied With HPRP
                    Requirements, San Juan, PR, 10/24/2011.

2012-AT-1004        DeKalb County Had Inadequate Controls Over
                    the Support for Commitments Entered in HUD’s
                    Information System, Decatur, GA, 01/09/2012.

2012-AT-1008        The City of Orlando Had Inadequate Controls Over
                    Commitments Entered Into HUD’s Information System
                    and Charges for a Terminated Activity, Orlando, FL,
                    03/29/2012. Questioned: $18,248; Better Use: $407,006.

2012-CH-1004        The State of Indiana’s Administrator Lacked Adequate Controls Over
                    the State’s HOME Investment Partnerships Program Regarding CHDOs’
                    Activities and Income, Indianapolis, IN, 02/24/2012. Questioned: $589,343;
                    Unsupported: $392,567; Better Use: $405,876.

2012-CH-1007        The State of Michigan Lacked Adequate Controls Over Its Use of
                    NSP Funds Under the HERA for a Project, Lansing, MI, 03/30/2012.
                    Questioned: $3,300,000; Unsupported: $3,300,000.

2012-DE-1003        A Hotline Complaint Against Colorado Coalition for the Homeless
                    Regarding Weaknesses in Its Controls Over the HPRP Could Not Be
                    Supported, Denver, CO, 03/22/2012.

2012-FW-1005        The State of Texas Did Not Follow Requirements for Its Infrastructure and
                    Revitalization Contracts Funded With CDBG Disaster Recovery Program
                    Funds, Austin, TX, 03/07/2012. Questioned: $9,061,794; Unsupported:
                    $7,599,747; Better Use: $75,009,910.

2012-LA-1001        Housing Our Communities Did Not Administer Its NSP in Accordance
                    With HUD Requirements, Mesa, AZ, 12/08/2011. Questioned: $787,004;
                    Unsupported: $714,152.

2012-LA-1002        The Women’s Development Center Charged Unallowable
                    Flat Fees and Miscalculated Resident Rents, Las
                    Vegas, NV, 12/08/2011. Better Use: $13,192.




                           Appendix 2 - Audit Reports Issued                                     51
     External Reports
     Audit Reports
     2012-LA-1003    The City of Modesto Did Not Always Comply With NSP2 Requirements,
                     Modesto, CA, 12/22/2011. Questioned: $108,066; Unsupported: $8,154;
                     Better Use: $62,500.

     2012-LA-1005    The City of Los Angeles Did Not Expend Brownfields Economic
                     Development Initiative and Section 108 Funds for the Goodyear Industrial
                     Tract Project in Accordance With HUD Requirements, Los Angeles, CA,
                     03/13/2012. Questioned: $5,339,821.

     2012-NY-1001    Bergen County Generally Administered Its HPRP in Accordance With
                     HUD Regulations, Bergen County, NJ, 10/04/2011.

     2012-NY-1002    The City of New York Charged Questionable Expenditures to Its HPRP,
                     New York, NY, 10/18/2011. Questioned: $423,373; Unsupported: $329,937.

     2012-NY-1003    The City of Syracuse Did Not Always Administer Its CDBG Program
                     in Accordance With HUD Requirements, Syracuse, NY, 10/25/2011.
                     Questioned: $1,377,112; Unsupported: $1,160,922; Better Use: $408,282.

     2012-NY-1004    The City of Buffalo Did Not Administer Its CDBG-R Program Funds
                     in Accordance With HUD Requirements, Buffalo, NY, 12/13/2011.
                     Questioned: $1,791,297; Unsupported: $1,791,297; Better Use: $159,388.

     2012-NY-1005    The City of Newark Had Weaknesses in the Administration of Its HPRP,
                     Newark, NJ, 01/27/2012. Questioned: $300,205; Unsupported: $261,875.

     2012-NY-1007    The City of Syracuse Did Not Always Administer Its Economic
                     Development Initiative Program in Accordance With HUD Requirements,
                     Syracuse, NY, 02/21/2012. Questioned: $2,756,400; Unsupported:
                     $2,558,000.

     2012-PH-1001    Healthy Neighborhoods, Inc., Generally Ensured That Its Consortium
                     Members Met Recovery Act Requirements, Baltimore, MD, 10/24/2011.

     2012-PH-1004    Luzerne County Generally Administered Its CDBG-R Funds According
                     to Applicable Requirements, Wilkes-Barre, PA, 01/13/2012. Questioned:
                     $145,152; Unsupported: $145,152.




52                          Appendix 2 - Audit Reports Issued
External Reports
Audit Reports
2012-PH-1006         Gloucester Township Did Not Always Administer Its CDBG-R Act Funds
                     According to Applicable Requirements, Blackwood, NJ, 03/14/2012.
                     Questioned: $28,850; Unsupported: $28,850.

2012-PH-1008         Mountain CAP of WV, Inc., Did Not Administer Its HPRP in Accordance
                     With Applicable Recovery Act and HUD Requirements, Buckhannon, WV,
                     03/15/2012. Questioned: $711,676; Unsupported: $711,676.

Fair Housing and Equal Opportunity
2012-PH-1002         The National Community Reinvestment Coalition Did Not Comply
                     With Conflict-of-Interest Provisions in Its Fair Housing Initiative Program
                     Agreement With HUD, Washington, DC, 11/14/2011. Questioned:
                     $59,800; Better Use: $338,483.

Housing
2012-DE-1001         Five Star Services, Inc., Did Not Submit Monthly Accounting Reports and
                     Section 236 Excess Income Reports to HUD, Fargo, ND, 11/02/2011.

2012-FW-1001         TXL Mortgage Corporation Did Not Comply With HUD-FHA Loan
                     Requirements in Underwriting 16 of 20 Home Loans, Houston, TX,
                     10/06/2011. Questioned: $171,621; Unsupported: $900; Better Use:
                     $713,341.

2012-FW-1004         PrimeLending Mortgage, LLP, Did Not Always Follow HUD-FHA
                     Underwriting Requirements for 12 of 20 Loans Reviewed, Plano, TX,
                     02/28/2012. Questioned: $213,356; Better Use: $845,763.

2012-FW-1006         J&M Mortgage Brokers, Ltd., Did Not Comply With HUD-FHA Loan
                     Requirements in Underwriting 6 of 20 Loans, Houston, TX, 03/14/2012.
                     Questioned: $65,559; Better Use: $327,232.

2012-KC-1001         John Calvin Manor Violated Its Regulatory and Loan Agreements With
                     HUD and Inappropriately Made Salary Payments to Its Board President,
                     Lee’s Summit, MO, 01/20/2012. Questioned: $340,454.

2012-LA-1004         MetLife Bank’s Scottsdale, AZ, Branch Office Did Not Follow FHA-
                     Insured Loan Underwriting and Quality Control Requirements,
                     01/26/2012. Questioned: $118,045; Unsupported: $16,490; Better Use:
                     $1,096,774.




                             Appendix 2 - Audit Reports Issued                                     53
     External Reports
     Audit Reports
     2012-NY-1006          MLD Mortgage, Inc., Did Not Always Comply With HUD-FHA Loan
                           Origination and Quality Control Requirements, Florham Park, NJ,
                           02/06/2012. Questioned: $607,193; Unsupported: $430,205; Better Use:
                           $2,756,325.

     2012-PH-1005          Second Northwest Cooperative Homes Association Did Not Identify and
                           Remit Excess Income to HUD, Washington, DC, 01/26/2012. Questioned:
                           $172,977; Better Use: $34,595.

     2012-PH-1007          Four Freedoms House of Philadelphia, Inc., Generally Managed Its Section
                           202 Housing Project in Accordance With Applicable Requirements,
                           Philadelphia, PA, 03/14/2012.

     Lead Hazard Control
     2012-CH-1005          The State of Wisconsin’s Department of Commerce Needs To Improve
                           Its Oversight of Its Lead-Based Paint Hazard Control Recovery Act Grant,
                           Madison, WI, 03/01/2012. Questioned: $53,919.

     Public and Indian Housing
     2012-AO-1001          Opelousas Housing Authority Did Not Always Comply With Recovery
                           Act and Federal Obligation, Procurement, and Reporting Requirements,
                           Opelousas, LA, 02/23/2012. Questioned: $303,633; Unsupported: $115,595.

     2012-AT-1002          The Sanford Housing Authority Lacked Adequate Management of and
                           Controls Over Its Public Housing and Section 8 Programs, Sanford, FL,
                           10/28/2011. Questioned: $1,291,232; Unsupported: $13,950.

     2012-AT-1003          The Lumbee Tribe of North Carolina Did Not Follow Some Requirements
                           for Its Native American Housing Block Grants Received Under the ARRA,
                           Pembroke, NC, 12/06/2011. Questioned: $40,041.

     2012-AT-1005          The Housing Authority of the City of Fort Lauderdale Did Not Fully
                           Comply With Federal Requirements When Administering Its Public
                           Housing Capital Fund Recovery Grants, Fort Lauderdale, FL, 01/09/2012.
                           Questioned: $826,560; Unsupported: $504,933; Better Use: $170,136.

     2012-AT-1006          The Housing Authority of the City of Sparta Did Not Maintain Adequate
                           Control Over Its Federal Funds, Sparta, GA, 01/24/2012. Questioned:
                           $524,916; Unsupported: $397,782.




54                                Appendix 2 - Audit Reports Issued
External Reports
Audit Reports
2012-AT-1007    The Shelby County Housing Authority Mismanaged Its HUD-Funded
                Programs, Memphis, TN, 01/26/2012. Questioned: $541,745; Unsupported:
                $226,373; Better Use: $450,955.

2012-BO-1001    The Housing Authority of the City of Hartford Did Not Properly
                Administer its $2.5 Million Recovery Act Grant Construction Management
                Contract, Hartford, CT, 01/06/2012. Questioned: $415,692.

2012-BO-1002    The Housing Authority of the City of Stamford Did Not Properly
                Administer and Oversee the Operations of Its Federal Programs, Stamford,
                CT, 03/14/2012. Questioned: $17,775,730; Unsupported: $17,726,635.

2012-BO-1003    The Medford Housing Authority Needs to Improve Rent Reasonableness
                Determinations, Procurement, and Enforcement of Housing Quality
                Standards, Medford, MA, 03/21/2012. Questioned: $9,279,455;
                Unsupported: $9,242,681.

2012-CH-1001    The Gallia Metropolitan Housing Authority Did Not Always Administer Its
                Grant in Accordance with Recovery Act and HUD Requirements, Bidwell,
                OH, 01/26/2012. Questioned: $11,397.

2012-CH-1002    The Saginaw Housing Commission Did Not Administer Its Grant in
                Accordance With Recovery Act, HUD’s, and Its Requirements, Saginaw,
                MI, 01/26/2012. Questioned: $736,351; Unsupported: $530,536.

2012-CH-1003    The Springfield Housing Authority Needs To Improve Its ARRA Contract
                Administration Procedures, Springfield, IL, 02/23/2012. Questioned:
                $222,318; Unsupported: $135,454; Better Use: $4,346.

2012-CH-1006    Cuyahoga Metropolitan Housing Authority Did Not Operate Its Section
                8 Housing Choice Voucher Program According to HUD’s Requirements,
                Cleveland, OH, 03/29/2012. Questioned: $664,500; Unsupported:
                $390,463; Better Use: $1,433,893.

2012-DE-1002    Trinidad Housing Authority Did Not Always Follow Requirements When
                Expending and Reporting Information About Its Recovery Act Capital
                Funds, Trinidad, CO, 11/29/2011. Questioned: $355,701; Unsupported:
                $353,341.




                       Appendix 2 - Audit Reports Issued                                   55
     External Reports
     Audit Reports
     2012-FW-1002    The Housing Authority of the City of Corpus Christi Generally
                     Administered Recovery Act Capital Funds in Compliance With the
                     Recovery Act, Corpus Christi, TX, 10/12/2011. Questioned: $6,475;
                     Unsupported: $4,302; Better Use: $2,418.

     2012-FW-1003    The Housing Authority of the City of Little Rock Generally Complied
                     With Recovery Act Funding Requirements, Little Rock, AR, 11/21/2011.
                     Questioned: $31,725.

     2012-KC-1002    The East St. Louis Housing Authority Did Not Properly Manage or Report
                     on Recovery Act Capital Funds, East St. Louis, IL, 03/02/2012. Questioned:
                     $2,422,023; Unsupported: $2,374,276.

     2012-PH-1003    The Housing Authority of the City of Camden Generally Calculated
                     Housing Assistance Correctly, Properly Determined the Eligibility of
                     Tenants, and Recertified Tenants in a Timely Manner, Camden, NJ,
                     01/10/2012.

     2012-SE-1001    The Bellingham Whatcom County Housing Authorities Generally
                     Complied With ARRA Capital Fund Grant Requirements, Bellingham,
                     WA, 10/14/2011.

     2012-SE-1002    The Vancouver Housing Authority Did Not Always Manage or Report on
                     Recovery Act Funds in Accordance With Requirements, Vancouver, WA,
                     12/21/2011. Questioned: $1,262,033; Unsupported: $830,198.




56                          Appendix 2 - Audit Reports Issued
    Audit-Related Memorandums9
    General Counsel

    2012-CF-1801              Settlement Agreement, U.S. Attorney’s Office, Central District of
                              California, Los Angeles, CA, 03/30/2012. Better Use: $200,000.

    2012-CF-1802              Settlement Agreement, U.S. Attorney’s Office, Central District of
                              California, Los Angeles, CA, 03/30/2012. Better Use: $200,000.

    2012-CF-1803              Settlement Agreement, U.S. Attorney’s Office, Central District of
                              California, Los Angeles, CA, 03/30/2012. Better Use: $200,000.

    2012-CF-1804              Final Civil Action, Diverting Operating Funds for Personal Use, Debra
                              Waterman, former Executive Director, Superior Housing Authority,
                              Superior, WI, 03/30/2012. Questioned: $73,295.

    2012-CH-1802              Final Civil Action, Landlord Fraud, Section 8 Housing Choice Voucher
                              Program, Gary Walczak, Section 8 Landlord, Portage Metropolitan Housing
                              Authority, Revenna, OH, 03/30/2012. Questioned: $2,500.

    2012-FW-1801              Actions Under Program Fraud Civil Remedies Act, Former Plano Housing
                              Authority Employee, Plano, TX, 10/03/2011. Questioned: $13,160.

    Housing

    2012-AT-1801              Wells Fargo Bank, Foreclosure and Claims Process
                              Review, Fort Mill, SC, 03/12/2012.

    2012-CH-1801              JPMorgan Chase Bank, N.A., Foreclosure and Claims
                              Process Review, Columbus, OH, 03/12/2012.

    2012-FW-1802              Bank of America Corporation, Foreclosure and Claims
                              Process Review, Charlotte, NC, 03/12/2012.

    2012-KC-1801              CitiMortgage, Inc., Foreclosure and Claims Process
                              Review, O’Fallon, MO, 03/12/2012.

    2012-PH-1801              Ally Financial, Incorporated, Foreclosure and Claims
                              Process Review, Fort Washington, PA, 03/12/2012.


    Public and Indian Housing

    2012-BO-1801              Corrective Action Verification, Housing Authority of the
                              City of Danbury, Procurement Practices, Audit Report
                              2004-BO-1004, Hartford, CT, 01/06/2012.
9


9
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
government audit standards, to close out assignments with no findings and recommendations, to respond to requests for
information, to report on the results of a survey, or to report the results of civil actions or settlements.




                                       Appendix 2 - Audit Reports Issued                                                   57
Table A
Audit reports issued before the start of period with no
management decision as of March 31, 2012
*Significant audit reports described in previous semiannual reports


                                                           Reason for lack of
Report number and title                                                              Issue date
                                                           management decision

* 2009-AT-0001, HUD Lacked Adequate      See chapter 9, page 30.                     09/28/2009
Controls To Ensure the Timely Commitment
and Expenditure of HOME Funds

2011-NY-1004, The City of Binghamton,                      See chapter 9, page 31.   12/21/2010
NY, Did Not Always Administer
Its Section 108 Loan Program in
Accordance With HUD Requirements

2011-CF-1801, An Underwriting Review of                    See chapter 9, page 32.   03/02/2011
15 FHA Lenders Demonstrated That HUD
Missed Critical Opportunities to Recover
Losses to the FHA Insurance Fund

2011-KC-0001, FHA Has Improved Its                         See chapter 9, page 35.   06/14/2011
Annual Lender Renewal Process, but
Challenges Remain

* 2011-AT-1011, Prospect Mortgage,                         See chapter 9, page 37.   07/08/2011
LLC, Sherman Oaks, CA, Did Not
Always Comply With Federal Housing
Administration Underwriting and
Quality Control Requirements

2011-KC-0004, FHA Did Not Prevent          See chapter 9, page 38.                   09/26/2011
Corporate Officers of Noncompliant Lenders
From Returning to the FHA Program

2011-CH-0003, The Office of                                See chapter 9, page 39.   09/30/2011
Healthy Homes and Lead Hazard
Control Needs To Improve Its
Monitoring of American Recovery and
Reinvestment Act Grant Recipients




                                                  Appendix 3 - Tables                             59
     Table B
     Significant audit reports for which final action had not been completed
     within 12 months after the date of the Inspector General’s report

                                                                            Decision   Final
     Report number Report title                                Issue date
                                                                            date       action

     2002-AT-1002   Housing Authority of the City              07/03/2002 10/31/2002   07/01/2015
                    of Tupelo, Housing Programs
                    Operations, Tupelo, MS

     2002-KC-0002   Nationwide Survey of HUD’s                 07/31/2002 11/22/2002   Note 2
                    Office of Housing Section 232
                    Nursing Home Program

     2005-AT-1004   Housing Authority of the                   11/19/2004 03/15/2005   03/15/2015
                    City of Durham, NC

     2005-AT-1013   Corporacion Para el Fomento                09/15/2005 01/11/2006   Note 1
                    Economico de la Ciudad Capital
                    Did Not Administer Its Independent
                    Capital Fund in Accordance With
                    HUD Requirements, San Juan, PR

     2006-NY-1003   The Housing Authority of the City of       02/14/2006 08/17/2006   09/30/2012
                    Newark’s Controls Over Bond Financing
                    Activities, Obtaining Supporting
                    Documentation, and Legal Settlements
                    Require Improvement, Newark, NJ

     2006-KC-1013   The Columbus Housing Authority         08/30/2006 10/17/2006       11/30/2012
                    Improperly Expended and Encumbered
                    Its Public Housing Funds, Columbus, NE

     2006-DP-0802   Assessment of HUD’s Compliance             09/21/2006 11/24/2006   09/30/2014
                    With OMB Memorandum M-06-
                    16, “Protection of Sensitive
                    Agency Information”




60                                       Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2007-KC-0002   HUD Can Improve Its Use of                 01/29/2007 01/29/2007   Note 1
               Residual Receipts To Reduce
               Housing Assistance Payments

2007-KC-0003   HUD Did Not Recapture Excess Funds         04/30/2007 08/27/2007   Note 1
               from Assigned Bond-Financed Projects

2007-SE-0001   HUD’s Oversight of the Section             06/07/2007 10/05/2007   Note 1
               8 Project-Based Contract

2007-FW-1011   Capmark Finance, Inc., Misrepresented   07/02/2007 10/23/2007      Note 1
               Asbury Square Apartments’ Financial and
               Physical Condition When Underwriting
               the $9.098 Million Loan, Tulsa, OK

2007-AT-1010   The Cathedral Foundation of                08/14/2007 12/03/2007   Note 1
               Jacksonville Used More Than $2.65
               Million in Project Funds for Questioned
               Costs, Jacksonville, FL

2007-DP-0006   Review of HUD’s Personal Identity          08/28/2007 12/20/2007   Note 1
               Verification and Privacy Program

2007-KC-0801   Lenders Submitted Title II                 09/24/2007 03/11/2008   Note 1
               Manufactured Housing Loans for
               Endorsement Without the Required
               Foundation Certifications

2008-LA-0001   The Los Angeles Multifamily Hub Did        11/05/2007 03/03/2008   Note 1
               Not Properly Monitor Its Performance-
               Based Contract Administrator, Los
               Angeles LOMOD

2008-LA-1003   Home for Life Foundation Did               12/18/2007 02/26/2008   04/01/2013
               Not Properly Administer Its
               Supportive Housing Program
               Grants, Los Angeles, CA




                                    Appendix 3 - Tables                                        61
     Table B
                                                                             Decision   Final
     Report number Report title                                 Issue date
                                                                             date       action

     2008-AT-1005   The City of Fort Lauderdale Did             01/11/2008 05/05/2008   05/01/2012
                    Not Properly Administer Its CDBG
                    Program, Fort Lauderdale, FL

     2008-AO-1002   State of Louisiana, Road Home               01/30/2008 05/12/2008   Note 1
                    Program, Funded 418 Grants Coded
                    Ineligible or Lacking an Eligibility
                    Determination, Baton Rouge, LA

     2008-AO-0801   Review of Duplication of Participants       03/28/2008 08/01/2008   Note 1
                    Benefits Under HUD’s Katrina
                    Disaster Housing Assistance Program
                    and Disaster Voucher Program

     2008-AT-0003   HUD Lacked Adequate Controls Over           05/14/2008 09/10/2008   09/30/2012
                    the Physical Condition of Section 8
                    Voucher Program Housing Stock

     2008-CH-1010   The City of Cincinnati Lacked Adequate 06/11/2008 10/09/2008        06/02/2012
                    Controls Over Its System Reporting
                    and Rental Rehabilitation Projects for
                    Its HOME Investment Partnerships
                    Program, Cincinnati, OH

     2008-DP-0004   Review of Selected FHA Major                06/12/2008 10/08/2008   04/30/2012
                    Applications’ Information
                    Security Controls

     2008-LA-1012   The Housing Authority of the City           07/01/2008 10/14/2008   12/31/2013
                    of Calexico Did Not Comply With
                    Public Housing Program Rules
                    and Regulations, Calexico, CA

     2008-CH-1014   The City of Cincinnati Did Not              09/26/2008 01/22/2009   06/03/2012
                    Adequately Manage Its HOME
                    Investment Partnerships Program,
                    Cincinnati, OH




62                                        Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2009-FW-1002   The Owner of Ebony Lake Healthcare         11/25/2008 03/25/2009   05/31/2012
               Center Violated Its Regulatory
               Agreement With HUD, Brownsville, TX

2009-DP-0003   Review of the Centralized HUD              01/09/2009 04/30/2009   Note 1
               Account Management Process

2009-NY-1008   The City of Newburgh Did Not               02/24/2009 06/11/2009   Note 1
               Always Administer Its CDBG
               Program in Accordance With HUD
               Requirements, Newburgh, NY

2009-AO-1001   State of Louisiana, Road Home              05/05/2009 09/16/2009   Note 1
               Program, Did Not Ensure That Road
               Home Employees Were Eligible To
               Receive Additional Compensation
               Grants, Baton Rouge, LA

2009-AO-1002   State of Louisiana, Road Home              05/05/2009 09/16/2009   Note 1
               Program, Did Not Ensure That
               Multiple Disbursements to a Single
               Damaged Residence Address Were
               Eligible, Baton Rouge, LA

2009-CH-1008   The City of East Cleveland Did             05/11/2009 09/08/2009   07/31/2014
               Not Adequately Manage Its HOME
               Investment Partnerships and CDBG
               Programs, East Cleveland, OH

2009-NY-1012   The City of Rome Did Not Administer        05/20/2009 09/23/2009   Note 1
               Its Economic Development
               Activity in Accordance With HUD
               Requirements, Rome, NY

2009-DP-0005   Review of Implementation of Security       06/11/2009 11/17/2009   12/31/2014
               Controls Over HUD’s Business Partners




                                    Appendix 3 - Tables                                        63
     Table B
                                                                            Decision   Final
     Report number Report title                                Issue date
                                                                            date       action

     2009-CH-1011   The Housing Authority of the City of       07/31/2009 11/24/2009   01/01/2030
                    Terre Haute Failed To Follow Federal
                    Requirements and Its Employment
                    Contract Regarding Nonprofit
                    Development Activities, Terre Haute, IN

     2009-KC-0001   HUD Subsidized an Estimated 2,094          08/14/2009 03/31/2011   04/30/2013
                    to 3,046 Households That Included
                    Lifetime Registered Sex Offenders

     2009-CH-0002   The Office of Affordable Housing           08/28/2009 12/26/2009   Note 2
                    Programs’ Oversight of HOME
                    Investment Partnerships Program
                    Income Was Inadequate

     2009-LA-1019   The Owner of Park Lee Apartments           09/15/2009 01/13/2010   09/30/2012
                    Violated Its Regulatory Agreement
                    With HUD, Phoenix, AZ

     2009-DE-1005   Adams County Did Not Have                  09/17/2009 01/15/2010   Note 1
                    Adequate Controls Over Its Block
                    Grant Funds, Westminster, CO

     2009-DE-1801   Adams County Had Weaknesses That           09/24/2009 01/14/2010   Note 1
                    Could Significantly Affect Its Capacity
                    To Administer Its Recovery Act Funding,
                    Commerce City, CO

     2009-LA-1020   The Housing Authority of the City of       09/24/2009 12/29/2009   10/01/2012
                    Richmond Did Not Follow Procurement
                    Requirements and Had Internal Control
                    Weaknesses, Richmond, CA

     2009-AT-1012   The Municipality of Río Grande             09/25/2009 01/22/2010   Note 1
                    Needs To Improve Administration of
                    Its CDBG Program and Its Recovery
                    Act Funds, Rio Grande, PR




64                                       Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2009-AT-0001   HUD Lacked Adequate Controls To            09/28/2009 03/18/2011   Note 3
               Ensure the Timely Commitment and
               Expenditure of HOME funds

2009-AT-1013   The City of Atlanta Entered Incorrect      09/28/2009 11/05/2009   Note 1
               Commitments Into HUD’s Integrated
               Disbursement and Information System
               for its HOME Program, Atlanta, GA

2009-CH-1017   The Housing Authority of the City of       09/29/2009 01/22/2010   04/06/2012
               Terre Haute Failed To Follow Federal
               Requirements Regarding Its Turnkey III
               Homeownership Program Units’ Sales
               Proceeds, Terre Haute, IN

2009-CH-1020   The City of Flint Lacked Adequate          09/30/2009 01/27/2010   Note 1
               Controls Over Its Commitment and
               Disbursement of HOME Investment
               Partnerships Program Funds, Flint, MI

2010-PH-1001   The City of Altoona, Pennsylvania, Made 10/02/2009 12/17/2009      05/31/2012
               Unsupported Community Development
               Block Grant Payments, Altoona, PA

2010-NY-1002   Jersey Mortgage Company                    10/09/2009 03/19/2010   Note 2
               Did Not Always Comply With
               HUD/FHA Loan Underwriting
               Requirements, Cranford, NJ

2010-LA-0001   HUD’s Performance-Based                    11/12/2009 03/12/2010   Note 1
               Contract Administration Contract
               Was Not Cost Effective

2010-FO-0003   Additional Details To Supplement Our       11/16/2009 04/02/2010   Note 2
               Report on HUD’s Fiscal Years 2009 and
               2008 Financial Statements




                                    Appendix 3 - Tables                                        65
     Table B
                                                                             Decision   Final
     Report number Report title                                 Issue date
                                                                             date       action

     2010-AO-0801   HUD Needs To Ensure That the                12/15/2009 04/19/2010   04/30/2012
                    Housing Authority of New Orleans
                    Strengthens Its Capacity To Adequately
                    Administer Recovery Funding

     2010-AO-1002   State of Louisiana Did Not Always           01/04/2010 05/14/2010   Note 1
                    Ensure Compliance Under Its
                    Recovery Workforce Training
                    Program, Baton Rouge, LA

     2010-KC-1001   The State of Iowa Misspent CDBG             03/10/2010 09/13/2010   10/31/2012
                    Disaster Assistance Funds and
                    Failed To Check for Duplicate
                    Benefits, Des Moines, IA

     2010-KC-1003   The City of East St. Louis Did Not          03/26/2010 07/22/2010   Note 2
                    Properly Allocate Salary and Building
                    Expenses or Properly Document Its
                    Process To Secure a Consulting Services
                    Contract, East St. Louis, IL

     2010-CH-0001   The Office of Block Grant Assistance        03/29/2010 07/27/2010   Note 2
                    Lacked Adequate Controls Over
                    the Inclusion of Special Conditions
                    in NSP Grant Agreements

     2010-AT-1003   The Housing Authority of                    04/28/2010 08/26/2010   11/29/2035
                    Whitesburg Mismanaged Its
                    Operations, Whitesburg, KY

     2010-AO-1003   The State of Louisiana’s Subrecipient       04/30/2010 08/27/2010   Note 1
                    Generally Ensured Costs Were
                    Supported Under Its Tourism
                    Marketing Program, Baton Rouge, LA

     2010-PH-1008   Sasha Bruce Youthwork, Incorporated,   05/11/2010 11/03/2010        Note 2
                    Did Not Support More Than $1.9 Million
                    in Expenditures, Washington, DC




66                                        Appendix 3 - Tables
Table B
                                                                        Decision   Final
Report number Report title                                 Issue date
                                                                        date       action

2010-CH-1007   The Michigan State Housing                  05/14/2010 09/08/2010   05/31/2012
               Development Authority Needs To
               Improve Its Controls Over Section
               8 Project-Based Housing Assistance
               Payments, Lansing, MI

2010-AT-1006   The Puerto Rico Department of Housing 06/11/2010 10/08/2010         Note 2
               Failed To Properly Manage Its HOME
               Investment Partnerships Program, San
               Juan, PR

2010-CH-1008   The DuPage Housing Authority                06/15/2010 10/08/2010   12/31/2012
               Inappropriately Administered Its
               Section 8 Project-Based Voucher
               Program, Wheaton, IL

2010-NY-1012   The City of Jersey City’s CDBG              07/01/2010 01/25/2011   Note 2
               Funds Used for a Float Loan Did
               Not Comply With Applicable
               Regulations, Jersey City, NJ

2010-FW-1005   The Texas Department of Housing and    07/20/2010 11/16/2010        Note 2
               Community Affairs Did Not Fully Follow
               Requirements or Best Practices in the
               Acquisition of Its Disaster Recovery-
               Funded Program Management Firm,
               Austin, TX

2010-AT-1007   The Housing Authority, City of              07/27/2010 11/24/2010   11/27/2013
               Wilson, Lacked the Capacity To
               Effectively Administer Recovery
               Act Funds, Wilson, NC

2010-CH-1010   The Housing Authority of the City of        07/27/2010 12/07/2010   12/31/2012
               Terre Haute Substantially Mismanaged
               Its Capital Fund Program and Lacked
               Capacity To Adequately Administer Its
               Recovery Act Funds, Terre Haute, IN




                                     Appendix 3 - Tables                                        67
     Table B
                                                                            Decision   Final
     Report number Report title                                Issue date
                                                                            date       action

     2010-LA-1014   The Retreat at Santa Rita Springs          08/02/2010 11/29/2010   Note 2
                    Did Not Comply With HUD Rules
                    and Regulations and Other Federal
                    Requirements, Green Valley, AZ

     2010-AO-1005   The State of Louisiana’s Subrecipient      08/04/2010 01/13/2011   Note 2
                    Did Not Always Meet Agreement
                    Requirements When Administering
                    Projects Under the Orleans Parish Long
                    Term Community Recovery Program,
                    Baton Rouge, LA

     2010-AT-1009   The Puerto Rico Public Housing             08/13/2010 10/29/2010   Note 2
                    Administration Needs To Improve Its
                    Procurement Procedures, San Juan, PR

     2010-AT-1011   The Puerto Rico Department                 08/25/2010 12/06/2010   Note 2
                    of Housing Did Not Ensure
                    Compliance With HOME Program
                    Objectives, San Juan, PR

     2010-FW-0003   HUD Was Not Tracking Almost          08/25/2010 12/03/2010         12/31/2012
                    13,000 Defaulted HECM Loans With
                    Maximum Claim Amounts of Potentially
                    More Than $2.5 Billion

     2010-KC-1007   The Missouri Housing Development           09/10/2010 01/07/2011   Note 2
                    Commission Did Not Always Obtain
                    Required Documents and Properly
                    Report on the Tax Credit Assistance
                    Program Funded Under the Recovery
                    Act, Kansas City, MO

     2010-LA-0002   HUD’s Office of Single Family              09/15/2010 01/13/2011   10/01/2012
                    Housing’s Management Controls Over
                    Its Automated Underwriting Process




68                                       Appendix 3 - Tables
Table B
                                                                         Decision   Final
Report number Report title                                  Issue date
                                                                         date       action

2010-KC-1008   The City of East St. Louis Awarded Block 09/28/2010 01/26/2011       05/12/2012
               Grant Program Funds to Recipients
               Without Adequately Verifying Their
               Eligibility, East St. Louis, IL

2010-CF-1801   Final Civil Action, Anchor Mortgage          09/30/2010 02/18/2011   02/17/2013
               Corporation, Loan Origination
               Fraud - Violations of the False
               Claims Act, Chicago, IL

2010-HA-0003   HUD Needs To Improve Controls Over           09/30/2010 01/27/2011   Note 1
               Its Administration of Completed and
               Expired Contracts

2011-DP-0001   HUD Did Not Properly Manage HITS             10/06/2010 02/03/2011   11/30/2012
               Contracts and Contractors To Fully
               Comply With Contract Requirements
               and Acquisition Regulations

2011-CH-1001   The City of Flint Lacked Adequate            10/13/2010 02/03/2011   Note 2
               Controls Over Its HOME Program
               Regarding Community Housing
               Development Organizations’ Home-
               Buyer Projects, Subrecipients’ Activities,
               and Reporting Accomplishments in
               HUD’s System, Flint, MI

2011-FW-1001   The Housing Authority of the City of         10/14/2010 03/29/2011   04/01/2012
               Shreveport Mismanaged Its Recovery
               Act Funds by Entering Into Imprudent
               Contracts To Meet the Obligation
               Deadline, Shreveport, LA

2011-AO-1002   The State of Louisiana Did Not Always 10/29/2010 02/25/2011          Note 2
               Ensure That Disbursements Under
               Its First Time Homebuyer Program
               Complied With Federal Regulations and
               Program Requirements, Baton Rouge, LA




                                      Appendix 3 - Tables                                        69
     Table B
                                                                            Decision   Final
     Report number Report title                                Issue date
                                                                            date       action

     2011-CH-1002   ACORN Associates, Inc., Materially         11/08/2010 01/19/2011   Note 2
                    Failed To Use Its Lead Elimination
                    Action Program Grant Funds
                    Appropriately, New Orleans, LA

     2011-PH-1002   The City of Scranton Did Not               11/08/2010 03/08/2011   06/08/2012
                    Administer Its CDBG Program
                    in Accordance With HUD
                    Requirements, Scranton, PA

     2011-PH-1003   The Pennsylvania Housing Finance        11/08/2010 03/08/2011      Note 2
                    Agency Generally Administered Its Tax
                    Credit Assistance Program Funded Under
                    the Recovery Act in Accordance With
                    Applicable Requirements, Harrisburg, PA

     2011-NY-1002   The City of Bayonne Did Not Adequately 11/12/2010 03/11/2011       Note 2
                    Administer Its Economic Development
                    Program, Bayonne, NJ

     2011-FO-0003   Additional Details To Supplement Our       11/15/2010 08/08/2011   06/30/2012
                    Report on HUD’s Fiscal Years 2010 and
                    2009 Financial Statements

     2011-CH-0001   HUD Can Improve Its Oversight of           11/16/2010 03/10/2011   10/31/2012
                    Public Housing Agencies’ Section 8
                    Project-Based Voucher Programs

     2011-NY-1003   The Irvington Housing Authority            11/24/2010 03/23/2011   04/30/2013
                    Did Not Administer Its Capital Fund
                    Programs in Accordance With HUD
                    Regulations, Irvington, NJ

     2011-DP-0003   HUD Did Not Fully Comply With the          12/03/2010 05/05/2011   12/31/2013
                    Requirements of OMB Circular A-127

     2011-FO-0004   Annual Evaluation of HUD’s Compliance 12/07/2010 08/01/2011        05/01/2012
                    With Presidential Executive Order
                    13520, Reducing Improper Payments




70                                       Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2011-LA-1005   The City and County of San Francisco       12/21/2010 04/20/2011   04/19/2012
               Did Not Always Ensure That
               Homelessness Prevention and Rapid Re-
               Housing Funds Were Used as Required,
               San Francisco, CA

2011-PH-1005   The District of Columbia Did Not           12/23/2010 04/22/2011   04/22/2012
               Administer Its HOME Program in
               Accordance With Federal Requirements,
               Washington, DC

2011-CH-1003   The City of Cleveland Lacked Adequate 12/27/2010 04/26/2011        04/18/2012
               Controls Over Its HOME Investment
               Partnerships Program and American
               Dream Downpayment Initiative-Funded
               Afford-A-Home Program, Cleveland, OH

2011-DP-0004   Fiscal Year 2010 Review of Information     01/14/2011 05/13/2011   05/13/2012
               Systems Controls in Support of the
               Financial Statements Audit

2011-AT-1802   The Municipality of Arecibo Charged        01/27/2011 05/26/2011   04/20/2012
               the HOME Program With Expenditures
               That Did Not Meet Program Objectives,
               Arecibo, PR

2011-CH-1004   The State of Indiana’s Administrator       01/31/2011 05/25/2011   04/30/2012
               Lacked Adequate Controls Over the
               State’s HOME Investment Partnerships
               Program and American Dream
               Downpayment Initiative-Funded First
               Home/PLUS Program, Indianapolis, IN

2011-NY-1005   The Lower Manhattan Development            02/07/2011 06/20/2011   06/20/2012
               Corporation CDBG Disaster Recovery
               Assistance Funds, New York, NY




                                    Appendix 3 - Tables                                        71
     Table B
                                                                             Decision   Final
     Report number Report title                                 Issue date
                                                                             date       action

     2011-KC-1001   The City of East St. Louis Did Not          02/09/2011 06/09/2011   06/09/2012
                    Properly Manage Housing Rehabilitation
                    Contracts Funded by the CDBG
                    Program, East St. Louis, IL

     2011-DP-0005   Although HUD Continued To Make              02/10/2011 05/10/2011   05/09/2012
                    Improvements to Its Entitywide Security
                    Program, Challenges Remained in
                    Its Efforts To Comply With Federal
                    Information Security Requirements

     2011-PH-1007   The Philadelphia Housing Authority Did      03/10/2011 06/07/2011   05/31/2012
                    Not Comply With Several Significant
                    HUD Requirements and Failed To
                    Support Payments for Outside Legal
                    Services, Philadelphia, PA

     2011-NY-1008   The Jersey City Housing Authority           03/18/2011 07/11/2011   07/09/2012
                    Did Not Always Obligate or
                    Disburse Replacement Housing
                    Factor Capital Fund Grants in a
                    Timely Manner, Jersey City, NJ

     2011-PH-1008   The West Virginia Housing Development 03/21/2011 07/19/2011         Note 2
                    Fund Generally Administered Its
                    Tax Credit Assistance Program
                    Funded Under the Recovery Act
                    in Accordance With Applicable
                    Requirements, Charleston, WV

     2011-PH-1009   Deutsche Bank Berkshire Mortgage, Inc., 03/22/2011 07/20/2011       07/11/2012
                    Acquired a $45.6 Million Loan That Was
                    Not Properly Underwritten in Accordance
                    With HUD’s Multifamily Accelerated
                    Processing Program, Bethesda, MD

     2011-CH-1006   The DuPage Housing Authority                03/23/2011 07/28/2011   12/31/2012
                    Inappropriately Administered Its Section
                    8 Housing Choice Voucher Program,
                    Wheaton, IL




72                                        Appendix 3 - Tables
Table B
                                                                      Decision   Final
Report number Report title                               Issue date
                                                                      date       action

2011-DP-0006   HUD’s Controls Over Selected              03/24/2011 07/18/2011   06/30/2012
               Configuration Management Activities
               Need Improvement

2011-LA-1008   The Hawthorne Housing Authority           03/28/2011 07/20/2011   04/30/2012
               Failed To Maintain an Adequate
               Financial Management System,
               Hawthorne, CA




                                   Appendix 3 - Tables                                        73
     Table B
     Significant audit reports issued within the past 12 months
     that were described in previous semiannual reports for which
     final action had not been completed as of March 31, 2012

                                                                             Decision   Final
     Report number Report title                                 Issue date
                                                                             date       action

     2011-KC-1003   The Missouri Housing Development            04/01/2011 07/29/2011   Note 2
                    Commission Did Not Always Disburse
                    Its Tax Credit Assistance Program Funds
                    in Accordance With Recovery Act
                    Requirements, Kansas City, MO

     2011-LA-1009   Special Services for Groups Approved        04/06/2011 08/04/2011   08/04/2012
                    Homelessness Prevention and Rapid
                    Re-Housing Program Assistance for
                    Unsupported and Ineligible Participants,
                    Los Angeles, CA

     2011-FW-1007   Albuquerque Housing Services                04/07/2011 08/03/2011   07/31/2012
                    Mismanaged Its Recovery Act Funding,
                    Albuquerque, NM

     2011-NY-1009   The East Orange Revitalization and          04/07/2011 08/03/2011   08/05/2012
                    Development Corporation Did Not
                    Always Comply With HOME Program
                    Requirements and Federal Regulations,
                    East Orange, NJ

     2011-AO-1004   The New Orleans Redevelopment               04/08/2011 08/06/2011   04/30/2012
                    Authority Had Not Administered Its
                    Recovery Act NSP2 in Accordance With
                    Federal Regulations, New Orleans, LA

     2011-AT-1006   The Municipality of Mayaguez Did            04/08/2011 08/05/2011   07/08/2012
                    Not Ensure Compliance With HOME
                    Program Objectives, Mayaguez, PR




74                                        Appendix 3 - Tables
Table B
                                                                        Decision   Final
Report number Report title                                 Issue date
                                                                        date       action

2011-FW-0001   The National Servicing Center               04/08/2011 08/05/2011   08/03/2012
               Implemented the FHA-HAMP Loss
               Mitigation Option in Accordance
               With Rules and Regulations

2011-NY-1010   The City of Buffalo Did Not                 04/15/2011 01/25/2012   01/24/2013
               Always Administer Its CDBG
               Program in Accordance With HUD
               Requirements, Buffalo, NY

2011-AO-1005   The State of Mississippi Generally          04/18/2011 08/16/2011   08/15/2012
               Ensured That Disbursements to
               Program Participants Were Eligible and
               Supported, Jackson, MS

2011-LA-0002   HUD Did Not Always Follow Its               04/18/2011 08/02/2011   04/28/2012
               Requirements for the Preclosing
               and Postclosing Review of
               Mortgage Files Submitted by New
               Direct Endorsement Lenders

2011-AT-1008   Palm Beach County Did Not                   04/22/2011 08/16/2011   08/13/2012
               Fully Comply With Federal
               Requirements When Administering
               Its NSP, Palm Beach, FL

2011-FW-0002   The Office of Healthcare Programs Could 04/26/2011 08/17/2011       08/17/2012
               Increase Its Controls To More Effectively
               Monitor the Section 232 Program

2011-LA-1802   The Housing Authority of the                05/05/2011 08/24/2011   08/24/2012
               City of Los Angeles Charged Its
               Recovery Act Program Without
               Applying Cost Reductions or
               Credits Related to Insurance
               Reimbursements, Los Angeles, CA




                                     Appendix 3 - Tables                                        75
     Table B
                                                                            Decision   Final
     Report number Report title                                Issue date
                                                                            date       action

     2011-LA-1010   People Assisting the Homeless Did          05/17/2011 09/14/2011   08/03/2012
                    Not Always Ensure That Homelessness
                    Prevention and Rapid Re-Housing
                    Funds Were Used To Assist Eligible and
                    Supported Participants, Los Angeles, CA

     2011-PH-1010   The Philadelphia Housing Authority         05/17/2011 09/02/2011   07/31/2012
                    Failed To Support Payments and
                    Improperly Used Funds From the ARRA,
                    Philadelphia, PA

     2011-CH-1008   The State of Michigan Lacked Adequate 06/03/2011 11/30/2011        04/27/2012
                    Controls Over Its NSP Regarding Awards,
                    Obligations, Subgrantees’ Administrative
                    Expenses and Procurement, and
                    Reporting Accomplishments, Lansing, MI

     2011-CH-0002   HUD’s Oversight of Its Multifamily     06/06/2011 11/30/2011       09/30/2012
                    Housing Subsidy Payment Review Process
                    Needs Improvement

     2011-AT-1009   The Georgia Department of Community        06/07/2011 07/27/2011   06/06/2012
                    Affairs Paid for Some Unsupported
                    Program Participants, Atlanta, GA

     2011-BO-1008   The Housing Authority of the City of       06/10/2011 10/05/2011   09/17/2012
                    New Haven Could Not Show That It
                    Always Complied With Environmental
                    and Labor Standards Enforcement
                    Requirements, New Haven, CT

     2011-FW-1012   The City of Tulsa Mismanaged Its           06/16/2011 10/13/2011   09/30/2012
                    Recovery Act Funding, Tulsa, OK

     2011-AO-0001   The Lafayette Parish Housing           06/22/2011 10/13/2011       10/31/2012
                    Authority Violated HUD Procurement
                    Requirements and Executed
                    Unreasonable and Unnecessary Contracts




76                                       Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2011-AT-1010   Crossfire Financial Network Did Not        06/24/2011 10/11/2011   09/30/2012
               Follow HUD Requirements in Approving
               FHA Loans and Implementing Its
               Quality Control Program, Miami, FL

2011-FW-1013   The City of Beaumont Should                06/30/2011 10/27/2011   10/05/2012
               Strengthen Its Controls Over Its
               Homelessness Prevention and Rapid
               Re-Housing Program, Beaumont, TX

2011-PH-1012   The City of Reading Generally Complied 06/30/2011 10/13/2011       08/06/2012
               With NSP2 Requirements, Reading, PA

2011-LA-1012   The City of Las Vegas Did Not Always 07/06/2011 10/28/2011         06/30/2012
               Ensure That Homelessness Prevention
               and Rapid Re-Housing Funds Were Used
               as Required, Las Vegas, NV

2011-AT-1011   Prospect Mortgage, LLC, Did                07/08/2011 01/04/2012   Note 3
               Not Always Comply With FHA
               Underwriting and Quality Control
               Requirements, Sherman Oaks, CA

2011-NY-1802   The City of Dunkirk Used CDBG              07/14/2011 11/10/2011   11/09/2012
               Recovery Act Funding for an
               Ineligible Activity, Dunkirk, NY

2011-LA-1015   Chicanos Por La Causa, Inc., Did           07/22/2011 11/09/2011   06/30/2012
               Not Always Administer Its NSP2
               Grant In Accordance With HUD
               Requirements, Phoenix, AZ

2011-CH-1010   The Rockford Housing Authority             07/25/2011 11/08/2011   04/30/2012
               Needs To Improve Its ARRA Contract
               Administration Procedures, Rockford, IL




                                    Appendix 3 - Tables                                        77
     Table B
                                                                             Decision   Final
     Report number Report title                                 Issue date
                                                                             date       action

     2011-DP-0008   The Disaster Recovery Grant Reporting       07/28/2011 11/25/2011   09/01/2012
                    System That Maintained Recovery
                    Act Information Had Application
                    Security Control Deficiencies

     2011-NY-1011   The Housing Authority of the                08/04/2011 11/30/2011   11/29/2012
                    City of Elizabeth Had Weaknesses
                    in Its Capital Fund Program’s
                    Financial Controls, Elizabeth, NJ

     2011-CH-1012   The Saginaw Housing Commission              08/09/2011 11/10/2011   11/01/2012
                    Did Not Fully Implement Prior Audit
                    Recommendations and Continued To
                    Use Its Public Housing Program Funds
                    for Ineligible Purposes, Saginaw, MI

     2011-PH-1014   The Allegheny County Housing             08/10/2011 12/22/2011      08/01/2012
                    Authority Did Not Always Procure Goods
                    and Services or Obligate Funds According
                    to Recovery Act and Applicable HUD
                    Requirements, Pittsburgh, PA

     2011-AO-1006   The Mississippi Regional Housing            08/16/2011 10/24/2011   04/30/2012
                    Authority VIII Generally Followed
                    Requirements When Obligating
                    and Expending Its Recovery
                    Act Capital Funds but Did Not
                    Accurately Report Recovery Act
                    Grant Information, Gulfport, MS

     2011-CH-1013   The Youngstown Metropolitan Housing         08/16/2011 12/13/2011   09/30/2012
                    Authority Needs To Improve Its
                    Procurement Process, Youngstown, OH

     2011-NY-1012   Ameritrust Mortgage Bankers, Inc., Did      08/16/2011 12/09/2011   07/31/2012
                    Not Always Comply With HUD-FHA
                    Loan Origination and Quality Control
                    Requirements, Lake Success, NY




78                                        Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2011-LA-1016   The City of Compton Did Not                08/18/2011 12/15/2011   11/30/2012
               Administer Its HOME Program
               in Compliance With HOME
               Requirements, Compton, CA

2011-AO-0002   The Lafayette Parish Housing Authority 08/26/2011 10/13/2011       10/13/2012
               Generally Followed Requirements When
               Obligating and Expending Its Public
               Housing Capital Fund Stimulus Recovery
               Act Funds but Did Not Always Comply
               With Recovery Act Procurement and
               Reporting Requirements

2011-BO-1009   Weymouth Housing Authority                 08/29/2011 12/22/2011   07/31/2012
               Did Not Always Administer Its
               Housing Choice Voucher Program
               and Public Housing Program in
               Accordance With HUD Regulations
               and Its Annual Contributions
               Contracts, Weymouth, MA

2011-NY-1013   Long Branch Housing Authority              09/01/2011 12/23/2011   08/31/2012
               Generally Complied With Capital Fund
               Program Regulations, Long Branch, NJ

2011-NY-1014   All American Home Mortgage Corp.           09/06/2011 01/05/2012   09/06/2012
               Did Not Always Comply With
               HUD-FHA Loan Underwriting
               Requirements, Brooklyn, NY

2011-AT-1016   The City of Hialeah Did Not Accurately     09/14/2011 12/14/2011   09/13/2012
               Report the Number of Jobs Created or
               Retained on the Recovery Act Web Site
               for Its Homelessness Prevention and
               Rapid Re-Housing Program, Hialeah, FL

2011-FW-1015   The Housing Authority of the City of       09/15/2011 01/05/2012   04/30/2012
               Las Cruces Complied With Recovery
               Act Capital Fund Obligation and
               Expenditure Requirements but
               Had Environmental and Reporting
               Exceptions, Las Cruces, NM




                                    Appendix 3 - Tables                                        79
     Table B
                                                                             Decision   Final
     Report number Report title                                 Issue date
                                                                             date       action

     2011-NY-1015   Weaknesses Existed in Essex County’s        09/20/2011 01/11/2012   10/01/2012
                    Administration of Its Homelessness
                    Prevention and Rapid Re-Housing
                    Program, Essex County, NJ

     2011-LA-1017   Universal American Mortgage                 09/21/2011 01/19/2012   09/21/2012
                    Company Branch Did Not Comply
                    With HUD Regulations in the
                    Origination and Quality Control of
                    FHA-Insured Loans, Las Vegas, NV

     2011-LA-1018   The Tule River Indian Housing               09/22/2011 12/15/2011   07/30/2012
                    Authority Did Not Administer the
                    Procurement and Contracting of Its
                    Recovery Act Native American Housing
                    Block Grant in Accordance With
                    HUD requirements, Porterville, CA

     2011-NY-1016   The City of Buffalo Did Not                 09/22/2011 01/25/2012   01/24/2013
                    Always Disburse Homelessness
                    Prevention and Rapid Re-Housing
                    Program Funds in Accordance
                    With Regulations, Buffalo, NY

     2011-PH-1015   Camden County Generally Administered 09/22/2011 01/12/2012          12/31/2012
                    Its CDBG-R Act Funds According to
                    Applicable Requirements, Camden, NJ

     2011-FW-1016   AmericaHomeKey, Inc., Did Not Follow        09/23/2011 01/20/2012   09/23/2012
                    HUD-FHA Loan Requirements in
                    Underwriting 13 of 20 Manufactured
                    Home Loans, Dallas, TX

     2011-SE-1008   The Idaho Housing and Finance               09/23/2011 01/18/2012   07/12/2012
                    Association Did Not Always
                    Comply With HOME Investment
                    Partnerships Project and Cost
                    Eligibility Regulations, Boise, ID




80                                        Appendix 3 - Tables
Table B
                                                                       Decision   Final
Report number Report title                                Issue date
                                                                       date       action

2011-DE-1005   The State of Montana Generally Used    09/26/2011 01/12/2012       09/25/2012
               Its CDBG-R Funds in Compliance With
               Requirements but Improperly Negotiated
               and Serviced Loans, Helena, MT

2011-AT-1018   The Municipality of San Juan Did Not       09/28/2011 01/12/2012   11/30/2012
               Properly Manage Its HOME Investment
               Partnerships Program, San Juan, PR

2011-AT-1019   The Alabama Department of                  09/28/2011 01/10/2012   05/31/2012
               Economic and Community Affairs
               Used Homelessness Prevention and
               Rapid Re-Housing Program Funds
               for Ineligible and Unsupported
               Purposes, Montgomery, AL

2011-PH-1016   The Philadelphia Housing Authority Did 09/28/2011 11/21/2011       05/31/2012
               Not Have Conflicts of Interest Related to
               Recovery Act Rehabilitation but Failed
               To Comply With Financial Disclosure
               Requirements, Philadelphia, PA

2011-AO-1007   Jefferson Parish Housing Authority Did 09/29/2011 01/26/2012       12/31/2012
               Not Always Comply With Public Housing
               Capital Fund Stimulus Recovery Act
               Obligation, Procurement, and Reporting
               Requirements, Marrero, LA

2011-CH-1014   The City of Cleveland Lacked Adequate      09/29/2011 01/26/2012   01/05/2013
               Controls Over Its HOME Investment
               Partnerships Program-Funded Housing
               Trust Fund Program Home-Buyer
               Activities, Cleveland, OH

2011-CH-1015   The Springfield Metropolitan Housing       09/30/2011 01/24/2012   09/30/2012
               Authority Did Not Administer Its Grant
               in Accordance With Recovery Act and
               HUD Requirements, Springfield, OH




                                    Appendix 3 - Tables                                        81
Explanations of Tables C and D
The Inspector General Act Amendments of 1988 require inspectors general and agency heads to
report cost data on management decisions and final actions on audit reports. The current method
of reporting at the “report” level rather than at the individual audit “recommendation” level results
in misleading reporting of cost data. Under the Act, an audit “report” does not have a management
decision or final action until all questioned cost items or other recommendations have a management
decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and
complete action on audit recommendations. For example, certain cost items or recommendations
could have a management decision and repayment (final action) in a short period of time. Other
cost items or nonmonetary recommendation issues in the same audit report may be more complex,
requiring a longer period of time for management’s decision or final action. Although management
may have taken timely action on all but one of many recommendations in an audit report, the current
“all or nothing” reporting format does not recognize their efforts.

The closing inventory for items with no management decision in tables C and D (line E) reflects
figures at the report level as well as the recommendation level.




                                         Appendix 3 - Tables                                            85
     Office of Audit
     Headquarters Office of Audit, Washington, DC				     202-708-0364

     Region 1/2			Boston, MA					617-994-8380
     				Hartford, CT					860-240-4837
     				New York, NY					212-264-4174
     				Albany, NY					518-462-2892
     				Buffalo, NY					716-551-5755
     				Newark, NJ					973-776-7339

     Region 3			Philadelphia, PA				215-656-0500
     				Baltimore, MD					410-962-2520
     				Pittsburgh, PA					412-644-6372
     				Richmond, VA					804-771-2100

     Region 4			Atlanta, GA					404-331-3369
     				Greensboro, NC				336-547-4001
     				Jackson, MS					601-965-4700
     				Jacksonville, FL				904-232-1226
     				Knoxville, TN					865-545-4400
     				Miami, FL					305-536-5387
     				San Juan, PR					787-766-5540

     Region 5			Chicago, IL					312-353-7832
     				Columbus, OH					614-469-5745
     				Detroit, MI					313-226-6280
     				Albuquerque, NM				505-346-7270

     Region 6			Fort Worth, TX					817-978-9309
     				Baton Rouge, LA				225-448-3976
     				Houston, TX					713-718-3199
     				New Orleans, LA				504-671-3715
     				Oklahoma City, OK				405-609-8606
     				San Antonio, TX				210-475-6800

     Region 7/8/10			Kansas City, KS					913-551-5870
     				St. Louis, MO					314-539-6339
     				Denver, CO					303-672-5452
     				Seattle, WA					206-220-5360

     Region 9			Los Angeles, CA				213-894-8016
     				Las Vegas, NV					702-366-2100
     				Phoenix, AZ					602-379-7250
     				San Francisco, CA				415-489-6400




92                            OIG - Telephone Directory
Office of Investigation
Headquarters Office of Investigation, Washington, DC			     202-708-0390

Region 1			Boston, MA				617-994-8450
				Hartford, CT				860-240-4800
				Manchester, NH			603-666-7988

Region 2			New York, NY				212-264-8062
				Buffalo, NY				716-551-5755
				Newark, NJ				973-776-7355

Region 3			Philadelphia, PA			215-430-6758
				Baltimore, MD				410-209-6533
				Pittsburgh, PA				412-644-6598
				Richmond, VA				804-822-4890
				Washington, DC			202-314-5451

Region 4			Atlanta, GA				404-331-5001
				Birmingham, AL			205-745-4314
				Columbia, SC				803-451-4318
				Greensboro, NC			336-547-4000
				Hattiesburg, MS			601-434-5848
				Jackson, MS				601-965-4700
				Louisville, KY				502-582-5251
				Memphis, TN				901-969-0344
				Miami, FL				305-536-3087
				Nashville, TN				615-736-2332
				San Juan, PR				787-766-5868
				Tampa, FL				813-228-2026

Region 5			Chicago, IL				312-353-4196
				Cleveland, OH				216-357-7800
				Columbus, OH				614-469-6677
				Detroit, MI				313-226-6280
				Grand Rapids, MI			616-309-2845
				Indianapolis, IN			317-226-5427
				Minneapolis-St. Paul, MN		612-370-3130

Region 6			Fort Worth, TX				817-978-5440
				Baton Rouge, LA			225-448-3941
				Houston, TX				713-718-3221
				Little Rock, AR				501-324-5931
				New Orleans, LA			504-671-3700
				Oklahoma City, OK			405-609-8603
				San Antonio, TX			210-475-6819




                                OIG - Telephone Directory                  93
     Region 7			Kansas City, KS				913-551-5866
     				St. Louis, MO				314-539-6559

     Region 8			Denver, CO				303-672-5350
     				Billings, MT				406-247-4080
     				Salt Lake City, UT			801-524-6090
     				Seattle, WA				206-220-5380

     Region 9			Los Angeles, CA			213-894-0219
     				Las Vegas, NV				702-366-2105
     				Phoenix, AZ				602-379-7252
     				Sacramento, CA			916-930-5693
     				San Francisco, CA			415-489-6683




94                     OIG - Telephone Directory
Report fraud, waste, and mismanagement in HUD
           programs and operations by

    Calling the OIG hotline: 1-800-347-3735

     Faxing the OIG hotline: 202-708-4829

        Sending written information to
Department of Housing and Urban Development
       Inspector General Hotline (GFI)
              451 7th Street, SW
           Washington, DC 20410

 Emailing the OIG hotline: hotline@hudoig.gov

Internet: http://www.hudoig.gov/hotline/index.php

         All information is confidential,
        and you may remain anonymous.




                OIG - Telephone Directory           95
